OIG Mission

                   semiannual report to congress | october 1, 2011–march 31, 2012




     T
            he mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency,
            and effectiveness of the critical programs and operations of the United States (U.S.) Secu­
            rities and Exchange Commission (SEC or Commission). This mission is best achieved by
     having an effective, vigorous, and independent office of seasoned and talented professionals who
     perform the following functions:

     •	   Conducting	independent	and	objective	           •	   Offering	expert	assistance	to	improve	
          audits, evaluations, investigations, and             SEC programs and operations;
          other reviews of SEC programs and               •	   Communicating	timely	and	useful	
          operations;                                          information that facilitates management
     •	   Preventing	and	detecting	fraud,	waste,	              decision making and the achievement of
          abuse, and mismanagement in SEC                      measurable gains; and
          programs and operations;                        •	   Keeping	the	Commission	and	Congress	
     •	   Identifying	vulnerabilities	in	SEC	systems	          fully and currently informed of significant
          and operations and recommending con­                 issues and developments.
          structive solutions;




                                                        OCTOBER 1, 2011–MARCH 31, 2012                |    i
contents




    message from the acting inspector general . . . . . . . . . . . . . . . . . . . . . . . . 1


    management and administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    Agency Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
    OIG Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    congressional requests and briefings. . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


    advice and assistance provided to the agency . . . . . . . . . . . . . . . . . . . . . . . 9


    coordination with other offices of inspector general . . . . . . . . . . . . . . . . 11


    audits and evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
    Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   . 13
        Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   . 13
        Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .   .   .   .   .   .   .   . 13
        Audit Follow-Up and Resolution . . . . . . . . . . . . . . . . . . . . . .         .   .   .   .   .   .   .   . 14
    Audits and Evaluations Conducted . . . . . . . . . . . . . . . . . . . . . . . .       .   .   .   .   .   .   .   . 14
        Follow-Up Review of Cost-Benefit Analyses in Selected
            SEC Dodd-Frank Act Rulemakings (Report No. 499) . . . . . . . . .              . . . . . . . . 14
        SEC’s Use of Justifications and Approvals in Sole-Source
            Contracting (Report No. 507). . . . . . . . . . . . . . . . . . . . . .        . . . . . . . . 16
        SEC’s Controls Over Government Furnished Equipment and
            Contractor Acquired Property (Report No. 503) . . . . . . . . . . . .          .   .   .   .   .   .   .   . 19
        Assessment of SEC’s System and Network Logs (Report No. 500) . . . . .             .   .   .   .   .   .   .   . 21
        2011 Annual FISMA Executive Summary Report (Report No. 501) . . . .                .   .   .   .   .   .   .   . 22
    Pending	Audits	and	Evaluations . . . . . . . . . . . . . . . . . . . . . . . . .       .   .   .   .   .   .   .   . 24
        Review of SEC’s Continuity of Operations Plan . . . . . . . . . . . . . .          .   .   .   .   .   .   .   . 24
        The SEC’s Controls Over Sensitive and Proprietary Information Collected
            and Exchanged With the Financial Stability Oversight Council . . . .           . . . . . . . . 25
        Assessment of the SEC’s Records Management Practices . . . . . . . . . .           . . . . . . . . 25
        Assessment of the Operating Effectiveness of the Office of
            International Affairs . . . . . . . . . . . . . . . . . . . . . . . . . .      . . . . . . . . 26
        Assessment of the SEC’s Hiring Practices for Senior-Level Positions . . . .        . . . . . . . . 26
        Audit of the SEC’s Tips, Complaints, and Referrals System . . . . . . . . .        . . . . . . . . 27




                                                    OCTOBER 1, 2011–MARCH 31, 2012                                     |   iii
investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      . . . 29

Investigations and Inquiries Conducted . . . . . . . . . . . . . . . . . . . . . . . . . .        . . . 30

    Destruction of Records and Related Incomplete Statements (Report No. OIG-567)                 . . . 30

    Allegations of Violation of Conflict of Interest Statute by

          Former Senior Enforcement Official (Report No. OIG-564) . . . . . . . . . .             . . . 32

    Investigation of Alleged Ethics Violations, Misconduct, and

          Time and Attendance Abuse at a Regional Office

          (Report Nos. OIG-562 and PI 10-61) . . . . . . . . . . . . . . . . . . . . . .          . . . 33

    Allegation of Favorable Treatment Provided by Regional Office to

          Prominent Law Firm (Report No. OIG-536) . . . . . . . . . . . . . . . . . .             . . . 34

    Misuse of Government Resources and Official Time at

          Headquarters (Report No. OIG-570) . . . . . . . . . . . . . . . . . . . . . .           . . . 35

    Allegation of Improper Personal Services Contract (Report No. OIG-569) . . . . .              . . . 36

    Allegation of Procurement Violations (Report No. OIG-556) . . . . . . . . . . . .             . . . 37

    Alleged Acceptance of Free or Discounted Legal Services

          From a Prohibited Source (PI 11-25) . . . . . . . . . . . . . . . . . . . . . . .       . . . 37

    Prohibited Personnel Practices in Hiring of Headquarters

          Employee (PI 10-07) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       . . . 38

    Prohibited Personnel Practices in Hiring of Senior Officer (PI 10-43) . . . . . . . .         . . . 38

    Violation of the Antideficiency Act Resulting from the Hiring of a

          Non-U.S. Citizen (PI 11-45) . . . . . . . . . . . . . . . . . . . . . . . . . . .       . . . 39

    Possible Violations of Ethical Standards and Conflict of Interest Statute (PI 11-26) .        . . . 40

    Alleged Improper Award of Sole Source Contract (PI 11-39) . . . . . . . . . . . .             . . . 41

    Alleged Failure to Pursue Insider Trading Investigation at

          Headquarters (PI 11-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       . . . 41

    Alleged Conflict of Interest, Improper Inducement and

          Acceptance of a Gift, and Other Ethics Violations (PI 11-53) . . . . . . . . . .        . . . 42

Civil	Settlement	and	Guilty	Plea	Arising	Out	of	OIG	Investigations . . . . . . . . . . . .        . . . 43

    Settlement with Department of Justice for Violation of Federal

          Conflict of Interest Statute. . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . . 43

    Guilty Plea to Felony Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       . . . 43

Pending	Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     . . . 44



review of legislation and regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . 45





iv   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
management decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

Status of Recommendations with No Management Decisions .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 48

Revised Management Decisions . . . . . . . . . . . . . . . .        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 48

Agreement with Significant Management Decisions . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 48

Instances Where Information was Refused . . . . . . . . . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 48



tables    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           . . . . . . . . . . . . 49

Table 1 List of Reports: Audits and Evaluations. . . . . . . . . . . . .                . . . . . . . . . . . . 49

Table	2		 Reports	Issued	with	Costs	Questioned	or	Funds	Put	to	
              Better Use (Including Disallowed Costs) . . . . . . . . . .               . . . . . . . . . . . . 49

Table 3 Reports with Recommendations on Which Corrective Action

              Has Not Been Completed. . . . . . . . . . . . . . . . . .                 . . . . . . . . . . . . 50

Table 4 Summary of Investigative Activity . . . . . . . . . . . . . . . .               . . . . . . . . . . . . 58

Table 5 Summary of Complaint Activity. . . . . . . . . . . . . . . . .                  . . . . . . . . . . . . 59

Table 6 References to Reporting Requirements of the

              Inspector General Act . . . . . . . . . . . . . . . . . . . .             . . . . . . . . . . . . 60



appendix a. peer reviews of oig operations          . . . . . . . . . . . . . . . . . . . . . . 61

Peer	Review	of	the	SEC	OIG’s	Audit	Operations	 . . . . . . . . . . . . . . . . . . . . . . . . 61

Peer	Review	of	the	SEC	OIG’s	Investigative	Operations . . . . . . . . . . . . . . . . . . . . . 61



oig contact information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62





                                                 OCTOBER 1, 2011–MARCH 31, 2012                                                     |   v
Message from the Acting Inspector General



I
     am pleased to present this Semiannual Report to Congress as the Acting Inspector
     General of the U.S. Securities and Exchange Commission (SEC or Commission).
     This report describes the work performed by the SEC Office of Inspector General
(OIG) for the period of October 1, 2011, through March 31, 2012. This report is
required by the Inspector General Act of 1978, as amended.

The audits, reviews, and investigations described       expert examined the economic analyses performed
in this report illustrate the commitment of the SEC     by the SEC in connection with five specific Dodd-
OIG to promoting the efficiency and effectiveness       Frank Act rulemakings. Based upon our review, we
of the SEC, as well as the impact the Office has had    identified several significant issues and made six
on SEC programs and operations.                         concrete recommendations to the agency, including
                                                        a recommendation that the agency consider ways
During this reporting period, our Office of Audits      for economists to provide additional input into cost-
issued several reports on matters pertinent to agency   benefit analyses for SEC rulemakings to assist in
operations.	These	included	a	review	of	the	SEC’s	       including both quantitative and qualitative informa­
systems and network logs, and an audit of the           tion to the extent possible. Our recommendations
management of SEC-furnished and SEC-funded              included that the Office of the General Counsel
property used by contractors.                           reconsider its guidance that the SEC should perform
                                                        economic analyses for rulemaking activities to the
Four of the five products issued by the Office of       extent that the SEC exercises discretion and should
Audits during this period were authored with the        consider whether a pre-statute baseline should be
assistance of outside contractors, whose work was       used whenever possible. We also recommended that
overseen by our Office of Audits staff. These includ­   SEC rulemaking teams generally use a single, con­
ed a follow-up report to our June 13, 2011 review       sistent baseline in the cost-benefit analyses of their
of	the	SEC’s	cost-benefit	analyses	undertaken	in	       rulemakings related to a particular topic.
connection with rulemakings required by the Dodd-
Frank	Wall	Street	Reform	and	Consumer	Protection	       We were very pleased during this reporting period
Act (Dodd-Frank Act). In this follow-up work, our       that in addition to our contractor-based reports,



                                                        OCTOBER 1, 2011–MARCH 31, 2012                   |   1
the Office of Audits issued a very important audit        ment (Enforcement) improperly destroyed records
report	on	the	SEC’s	use	of	justifications	and	approv­     relating to matters under inquiry (MUI) over the
als (J&A) in contracting. This audit was prompted,        past two decades and that the SEC made mislead­
in part, by an investigation conducted by the OIG         ing statements in a response that was sent to the
in a prior reporting period, in which a J&A was           National Archives and Records Administration
allegedly used improperly to effectuate a sole-source     (NARA)	concerning	the	SEC’s	potential	unauthor­
leasing action. A sole-source acquisition is a con­       ized destruction of MUI records. This OIG investi­
tract that is entered into or proposed to be entered      gation found that SEC Enforcement staff destroyed
into by an agency after soliciting and negotiating        documents related to closed MUIs that should have
with only one source or vendor and, with limited          been preserved as federal records. These documents
exceptions, requires a J&A. Our audit identified          included anonymous correspondence and com­
certain issues arising out of a particular regional       plaints, correspondence from the SEC requesting
office’s	sole-source	contracting	actions,	and	we	also	    documents from companies in the course of MUIs,
found that the agency may not be receiving the best       and correspondence which accompanied compa­
value for its expert services contracts. While we did     nies’	document	production	responses.	Notwith­
find	that	the	SEC’s	Office	of	Acquisitions’	(OA)	has	     standing these instances of record destruction in
taken positive steps to increase competition in con­      connection with MUIs that were closed without
tracting at the SEC resulting in significant increases    becoming investigations, the OIG did not learn of
in the contract dollars the agency competed from          any particular investigation that was hampered by
fiscal years 2009 to 2011, we noted that the current      the destruction of MUI records.
internal guidance for preparing J&As is potentially
confusing	to	OA’s	contracting	officers	and	contract	      Also during this reporting period, the OIG con­
specialists who prepare J&As. Over the past few           ducted a comprehensive investigation after receiving
years, OA management has issued various guidance          23 anonymous complaints concerning a single SEC
regarding J&A policy and procedures to its staff.         regional office. The allegations included claims of
However,	OA’s	contracting	officers	and	contract	          general misconduct, time and attendance abuse,
specialists expressed confusion about the guidance        mistreatment, employment preselection, waste
they should use for processing J&As. A full descrip­      of travel resources, and improper disclosure of
tion of our review is contained in the Audits and         confidential information. The OIG also considered
Evaluations Conducted section of this report.             allegations regarding travel policy violations at the
                                                          regional office. Together, these complaints alleged
There were also numerous investigations and inqui­        that 27 different regional office staff members
ries conducted by this Office during the reporting        engaged in various forms of misconduct. The OIG
period. These included investigations of alleged          conducted a comprehensive and thorough investiga­
procurement violations and an alleged violation           tion and found that many of the complaints were
of a federal conflict-of-interest statute by a former     unsubstantiated, while others had already been
senior official, and inquiries into prohibited hiring     addressed	by	management.	However,	the	OIG’s	
practices, allegations of a sole-source contract being    investigation found some areas of concern. The
improperly awarded, and allegations of an SEC             most significant area of concern identified during
manager’s	acceptance	of	free	or	discounted	legal	ser­     the investigation was evidence that a senior attorney
vices in violation of the standards of ethical conduct.   made oral or written comments of an inappropri­
                                                          ate or sexual nature over the last 12 years despite
The OIG also completed an investigation into              having been disciplined for his improper behavior.
allegations	that	the	SEC’s	Division	of	Enforce­           Furthermore, because we received numerous com­




2   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
plaints regarding time and attendance matters, the         Finally, the departure in January 2012 of former
OIG recommended that the regional office promptly          Inspector	General	H.	David	Kotz	was	a	notable	loss	
implement a previous OIG recommendation,                   for the OIG and the agency. I am extremely proud
initially made in February 22, 2010, that devices          of the professionalism and hard work that the OIG
to capture building entry and exit information be          staff has exhibited while the Commission moves
installed in the regional office. A detailed description   to fill this important vacancy. Additionally, I am
of the investigations and inquiries conducted by the       appreciative of the support the Office has received
Office during this semiannual reporting period can         from numerous SEC staff members during this
also be found in this report.                              transitional period for the OIG.




                                                                       Noelle L. Maloney
                                                                       Acting Inspector General




                                                           OCTOBER 1, 2011–MARCH 31, 2012                 |   3
Management and Administration

AGENCY OVERVIEW                                           Securities Rulemaking Board (MSRB), and the



T
         he	SEC’s	mission	is	to	protect	investors;	       Securities	Investor	Protection	Corporation	(SIPC).	
         maintain fair, orderly, and efficient markets;   While about 3,200 smaller investment advisers will
         and facilitate capital formation. The SEC        transition to state regulation under the Dodd-Frank
strives to promote a market environment that is           Wall	Street	Reform	and	Consumer	Protection	Act	
worthy	of	the	public’s	trust	and	characterized	by	        (Dodd-Frank Act), the SEC is gaining responsibil­
transparency	and	integrity.	The	SEC’s	core	values	        ity for directly overseeing approximately 700 larger
consist of integrity, accountability, effectiveness,      private fund advisers, including hedge funds.
teamwork, fairness, and commitment to excellence.
The	SEC’s	goals	are	to	foster	and	enforce	compli­         In order to accomplish its mission most effectively
ance with the federal securities laws; establish an       and efficiently, the SEC is organized into five main
effective regulatory environment; facilitate access to    divisions (Corporation Finance; Enforcement;
the information investors need to make informed           Investment Management; Trading and Markets; and
investment decisions; and enhance the Commis­             Risk, Strategy, and Financial Innovation) and 18
sion’s	performance	through	effective	alignment	and	       functional	offices.	The	Commission’s	headquarters	
management of human resources, information, and           is in Washington, D.C., and there are 11 regional
financial capital.                                        offices located throughout the country. As of Sep­
                                                          tember 30, 2011, the SEC employed 3,844 full-time
SEC staff monitor and regulate a securities industry      equivalents (FTEs), consisting of 3,806 permanent
comprising more than 35,000 registrants, including        and 38 temporary FTEs.
approximately 10,000 public companies, 11,000
investment advisers, about 7,500 mutual funds,
and about 5,000 broker-dealers, as well as national       OIG STAFFING
securities exchanges and self-regulatory organiza­        During the reporting period, the OIG welcomed two
tions, 500 transfer agents, 15 national securities        audit managers and an assistant inspector general
exchanges, nine clearing agencies, and 10 credit rat­     for investigations to the staff, thereby maintaining its
ing agencies. Additionally, the agency has oversight      capacity to conduct its oversight responsibilities.
responsibility	for	the	Public	Company	Accounting	
Oversight	Board	(PCAOB),	the	Financial	Industry	          In	October	2011,	Steven	Kaffen	joined	the	OIG	
Regulatory Authority (FINRA), the Municipal               as	an	audit	manager.	Mr.	Kaffen	came	to	the	OIG	




                                                           OCTOBER 1, 2011–MARCH 31, 2012                     |   5
from	the	Peace	Corps	OIG,	where	he	served	as	            Deposit Insurance Corporation (FDIC), where he
assistant inspector general for auditing and senior      served as a supervisory counsel and chief of enforce­
auditor.	During	his	eight	years	at	the	Peace	Corps	      ment and was responsible for overseeing banking
OIG, he supervised headquarters and field audits         enforcement activities and investigations involving
and personally conducted financial and administra­       state-chartered banks and bank failures. Before
tive	audits	in	34	countries.	Mr.	Kaffen	began	his	       joining	the	FDIC,	Mr.	Weber	served	for	more	than	
career with Arthur Young (now known as Ernst             a decade as the special counsel for enforcement at
& Young), where he served as an audit manager in         the Office of the Comptroller of the Currency. Mr.
New York, New York, and as director of accounting        Weber also previously served as the law clerk to a
and	auditing	in	Paris,	France.	Mr.	Kaffen	was	also	      U.S.	district	judge	in	New	York	and,	in	that	capac­
director of controls and procedures and a financial      ity, assisted with criminal and civil cases before
controller for Levi Strauss & Co. In addition, he was    the United States Court of Appeals for the Second
supervisory committee chairman of Levi Strauss &         Circuit. Mr. Weber is admitted to practice law in
Co.’s	federal	credit	union.	Further,	Mr.	Kaffen	has	     the District of Columbia and New York and before
consulted for UNICEF, Deloitte, and 20th Century         several United States district courts and the United
Fox.	He	was	a	Peace	Corps	volunteer	in	Russia	and	       States	Supreme	Court.	He	has	a	bachelor’s	degree	
a United Nations elections monitor in Bosnia and         cum	laude	in	criminal	justice	from	Utica	College	and	
East	Timor.	Mr.	Kaffen	has	a	bachelor’s	degree	in	       holds	a	juris	doctor	degree	magna	cum	laude	from	
accounting from the University of Maryland and a         the Syracuse University College of Law. Mr. Weber
master’s	of	business	administration	degree	with	hon­     is a certified fraud examiner and a member of the
ors from Syracuse University. He is a certified public   Association of Certified Fraud Examiners.
accountant and member of the American Institute of
Certified	Public	Accountants.                            During the semiannual reporting period, former
                                                         Assistant Inspector General for Investigations
In	November	2011,	Shannon	Williams	joined	the	           James David Fielder left the OIG for an opportu­
OIG as an audit manager. Ms. Williams came to the        nity outside the Commission, and audit manager
OIG from the Office of the Special Inspector General     Anthony Barnes accepted a position in another SEC
for	the	Troubled	Asset	Relief	Program	(SIGTARP),	        Office.	Finally,	on	January	27,	2012,	H.	David	Kotz	
where	she	was	an	audit	director.	At	SIGTARP,	Ms.	        left the Office after serving as Inspector General
Williams oversaw audits related to financial institu­    since	December	2007.	During	his	tenure,	Mr.	Kotz	
tions support programs, asset support programs,          oversaw numerous high-profile investigations and
and	auto	industry	support	programs.	Prior	to	joining	    audits,	notably,	the	OIG’s	investigation	of	the	failure	
SIGTARP,	Ms.	Williams	was	an	audit	manager	at	           of	the	SEC	to	uncover	the	Bernard	L.	Madoff	Ponzi	
J.P.	Morgan,	focusing	on	the	trading	operations	for	     scheme,	audits	of	the	SEC’s	oversight	of	Bear	Stearns	
securitized products and rates within the investment     and related entities, and reviews of economic analy­
banking division. Ms. Williams is a certified public     ses undertaken by the Commission in connection
accountant	and	has	a	bachelor’s	degree	in	account­       with Dodd-Frank Act rulemakings. Upon Inspector
ing from Rutgers School of Business.                     General	Kotz’s	departure,	Noelle	L.	Maloney	was	
                                                         named Acting Inspector General. Subsequently, on
In	January	2012,	David	P.	Weber	joined	the	OIG	          March 23, 2012, Jacqueline Wilson was named Act­
as the Assistant Inspector General for Investiga­        ing Deputy Inspector General.
tions. Mr. Weber came to the OIG from the Federal




6   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Congressional Requests and Briefings



D
         uring this semiannual reporting period, the     On March 29, 2011, the OIG provide a report to
         OIG continued to keep Congress fully and        the U.S. Senate Committee on Homeland Security
         currently	informed	of	the	OIG’s	investiga­      and Governmental Affairs, the U.S. House of Repre­
tions, audits, and other activities through written      sentatives Committee on Oversight and Govern­
reports, meetings, and by telephone.                     ment Reform, and the Office of Management and
                                                         Budget	(OMB)	on	the	SEC’s	compliance	with	the	
The	OIG’s	previous	semiannual	report	to	Con­             Improper	Payments	Elimination	and	Recovery	Act	
gress discussed a report issued on June 13, 2011,        of	2010	(IPERA)	for	fiscal	year	2011.	In	its	report,	
which	contained	the	OIG’s	initial	assessment	of	the	     the	OIG	noted	that,	as	reflected	in	the	SEC’s	fiscal	
SEC’s	cost-benefit	analyses	related	to	six	specific	     year	2011	Performance	and	Accountability	Report	
rulemakings that had been identified in a May 4,         (PAR),	the	SEC	had	conducted	a	risk	assessment	
2011, letter from several members of the U.S. Sen­       and determined that none of its programs and
ate Committee on Banking, Housing and Urban              activities were susceptible to significant improper
Development (Senate Banking Committee). In the           payments at or above the threshold levels set by
June 13, 2011, report, the OIG stated that it would      OMB. The OIG report further noted that the
issue	a	subsequent	report	on	the	results	of	the	OIG’s	   SEC’s	fiscal	year	2011	PAR	stated	that	the	SEC	had	
further	review	of	the	SEC’s	cost-benefit	analyses.	      determined that the implementation of a payment
During this reporting period, the OIG completed its      recapture program for the SEC (which does not
additional review of the cost-benefit analyses per­      administer grant, benefit, or loan programs) was not
formed by the SEC in connection with rulemakings         cost-effective, but that the SEC nonetheless strives to
under the Dodd-Frank Act and issued Report No.           recover any overpayments identified through other
499, Follow-Up Review of Cost-Benefit Analyses in        sources.	Based	upon	its	review	of	the	SEC’s	IPERA	
Selected SEC Dodd-Frank Act Rulemakings. The             Risk Assessment Summary Report and supporting
report is discussed in detail in the Audits and          documentation, the OIG determined that the SEC
Evaluations Conducted section of this report and         was	in	compliance	with	IPERA.
is available at http://www.sec-oig.gov/Reports/
AuditsInspections/2012/Rpt%20499_                        Also during the reporting period, the OIG provided
FollowUpReviewofD-F_CostBenefitAnalyses_                 briefings to, and had discussions with, Members of
508.pdf.                                                 Congress and Congressional staff concerning the




                                                          OCTOBER 1, 2011–MARCH 31, 2012                   |   7
work of the OIG and issues impacting the SEC. For         During the reporting period, the OIG also received
example, on January 24, 2012, the then-Inspector          a Congressional request for investigative work
General and then-Deputy Inspector General met             and provided information to Congress concerning
with the Honorable Jo Ann Emerson (R-Missouri),           completed inquiries and investigations. In mid-
Chairwoman, Subcommittee on Financial Services            October 2011, the OIG received a request from
and General Government, U.S. House of Represen­           staff of the Senate Banking Committee that the
tatives Committee on Appropriations. The discus­          OIG, as well as the OIGs of other financial regula­
sions during the meeting covered a variety of topics,     tory agencies, inquire into the leak of a draft rule to
including disciplinary actions taken by the agency,       the public. The OIG commenced an inquiry into the
general accountability of the agency, and implemen­       leak, which was pending at the end of the reporting
tation of consultant recommendations. On March            period. On December 20, 2011, the former Inspec­
20, 2012, the Acting Inspector General and an OIG         tor General provided a letter to the Honorable
staff member briefed staff of the Senate Banking          Barney Frank (D-Massachusetts), Ranking Member,
Committee concerning the OIG SEC Employee Sug­            U.S. House of Representatives Committee on Finan­
gestion	Program,	which	was	established	pursuant	          cial Services, which summarized the work the OIG
to section 966 of the Dodd-Frank Act. Specifically,       had performed during its inquiry into a complaint
the discussions focused on the number and type of         that had previously been forwarded to the Inspec­
suggestions received under the program, the charac­       tor General for review. On December 21, 2011, the
teristics of the persons submitting suggestions (e.g.,    Inspector General provided the Honorable Charles
support staff, senior staff), and publicizing the exis­   Grassley (R-Iowa), Ranking Member, U.S. Senate
tence of the program. The Acting Inspector General        Committee on the Judiciary, and the Honorable
and OIG staff member also briefed the committee           Tom Coburn (R-Oklahoma), Ranking Member,
staff concerning the first OIG SEC Employee Sug­          Permanent	Subcommittee	on	Investigations,	U.S.	
gestion	Program	awards	ceremony	held	in	Decem­            Senate Committee on Homeland Security and
ber 2011, at which several SEC employees who had          Governmental Affairs, with a previously requested
made suggestions resulting in agency cost savings         biannual report on all closed investigations, evalua­
were honored.                                             tions, and audits conducted by the OIG.




8   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Advice	and	Assistance	Provided	to	the	Agency


D
         uring this semiannual reporting period,        a	suggestion	to	the	SEC’s	Office	of	Acquisitions	that	
         the OIG provided advice and assistance         agency contract staff information be tracked on a
         to SEC management on several issues            SharePoint	spreadsheet	rather	than	by	e-mail.	Fur­
that	were	brought	to	the	OIG’s	attention	through	       ther, the Acting Inspector General and the Counsel
various means. The OIG conveyed this advice and         to the Inspector General met with officials from the
assistance through written communications and in        Office of Compliance Inspections and Examinations
meetings and conversations with Commission offi­        (OCIE) on two occasions to discuss several new
cials. The advice and assistance included suggestions   initiatives that OCIE has recently undertaken and
for improvement in SEC programs and operations          implemented.
received through the OIG SEC Employee Suggestion
Program,	which	was	established	pursuant	to	section	     Also during the reporting period, the OIG received
966 of the Dodd-Frank Act.                              a suggestion through the OIG SEC Employee
                                                        Suggestion	Program	regarding	fee-bearing	filings	
Specifically, the Inspector General met with SEC        made	through	the	SEC’s	Electronic	Data	Gathering,	
contractors responsible for reviewing the roles,        Analysis, and Retrieval (EDGAR) system and the
responsibilities, and workload of the various Com­      process by which EDGAR users request refunds of
mission divisions and offices and provided detailed     excess filing fees paid. Currently, users must submit
information	concerning	the	OIG’s	functions,	staff­      refund requests by mail or facsimile, and it was sug­
ing, and workload. The Acting Inspector General         gested that an online refund request form or process
and Counsel to the Inspector General also met with      be developed to make this process more efficient
contractors	in	connection	with	the	SEC’s	annual	        for both filers and Office of Financial Manage­
entity-level assessment. Specific topics discussed      ment (OFM) staff. After reviewing and analyzing
during the meeting included ethics and compliance,      the suggestion received, the OIG forwarded it to
risk and prioritization of audits and investigations,   OFM staff, who responded favorably to the sugges­
internal policies and procedures, and maintenance       tion and submitted a request to make this change
of	the	OIG	SEC	Employee	Suggestion	Program.             effective in June 2012. The change is expected to
                                                        result in increased efficiency and will provide an
In addition, OIG staff completed an agency hiring       additional layer of internal controls to the filing fee
manager recruitment outreach survey and provided        refund process.




                                                         OCTOBER 1, 2011–MARCH 31, 2012                    |   9
Another suggestion received during the reporting        alternate	method	of	confirming	the	employee’s	iden­
period through the OIG SEC Employee Suggestion          tity, which can lead to delays. The employee who
Program	pertained	to	potential	improvements	to	         made the suggestion indicated that it would be more
the existing process followed at SEC Headquarters       efficient for the security personnel at the guard desk
when an SEC employee has forgotten his or her           to have the ability to confirm employment without
identification badge and needs to obtain access to      having to check with the badge office. The OIG pro­
SEC facilities. Under the current process, the guards   vided the suggestion to the Office of FOIA, Records
located at the security desk at SEC Headquarters        Management, and Security, which informed the
main entrance call the SEC badge office to confirm      OIG that it is in the process of implementing
that the individual seeking admission is an SEC         changes to alleviate the inefficiencies involved in
employee or contractor. However, if an employee         verifying employment outside the operating hours
arrives in the morning before the badge office has      of the badge office.
opened, the security guards are required to find an




10   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Coordination with Other Offices of
Inspector General


D
         uring this semiannual reporting period, the     Further, during the reporting period, the SEC OIG
         SEC OIG coordinated its activities with         responded to numerous requests for information or
         those of other OIGs, as required by section     surveys received from CIGIE or other OIGs. These
4(a)(4) of the Inspector General Act of 1978, as         information requests and surveys related to, among
amended. Specifically, the SEC Inspector General or      other things, nonfederal employee whistleblower
a senior OIG staff member attended meetings of the       protections, common practices for conducting
Council of the Inspectors General on Integrity and       vulnerability assessments and penetration testing,
Efficiency (CIGIE).                                      practices regarding congressional communications,
                                                         auditor position grades, numbers of criminal and
In addition, the SEC Inspector General was a mem­        noncriminal investigators, needs for training in tech­
ber	of	CIGIE’s	Professional	Development	Commit­          nical writing skills, and training of mission-support
tee, the purpose of which is to provide educational      personnel.
opportunities for members of the CIGIE community
and to assist in ensuring the development of compe­      In addition, the SEC Inspector General participated
tent personnel. During the reporting period, the SEC     in the activities of the Council of Inspectors General
Inspector General or a senior SEC OIG staff member       on Financial Oversight (CIGFO), which was created
attended	meetings	of	the	Professional	Development	       by section 989E of the Dodd-Frank Act. CIGFO is
Committee.	As	part	of	its	participation	in	the	Profes­   chaired by the Inspector General of the Department
sional Development Committee activities, the SEC         of the Treasury and also includes the inspectors
OIG provided substantial comments on draft revi­         general of the Board of Governors of the Federal
sions to the Quality Standards for Federal Offices of    Reserve System, the Commodity Futures Trading
Inspector General (Silver Book). The Counsel to the      Commission, the Department of Housing and Urban
Inspector General also participated in the activities    Development, the Federal Deposit Insurance Cor­
of the Council of Counsels to the Inspector General,     poration, the Federal Housing Finance Agency, the
an informal organization of OIG attorneys through­       National Credit Union Administration, and the SEC
out the federal government who meet monthly and          and the Special Inspector General for the Troubled
coordinate and share information.                        Asset	Relief	Program.	Under	the	Dodd-Frank	Act,	




                                                         OCTOBER 1, 2011–MARCH 31, 2012                   |   11
CIGFO is required to meet at least quarterly to          2012 Annual Report. This submission contained
facilitate the sharing of information, with a focus on   a discussion of recent examples of oversight work
concerns that may apply to the broader financial sec­    performed by the SEC OIG, including the June 13,
tor and ways to improve financial oversight. CIGFO       2011,	report	on	the	OIG’s	review	of	economic	analy­
is also required to submit an annual report to the       ses performed by the SEC in connection with Dodd-
Financial Stability Oversight Council and Congress.      Frank Act rulemakings; the January 27, 2012, report
The report must include a section that highlights the    on	the	OIG’s	follow-up	review	of	the	cost-benefit	
concerns and recommendations of each inspector           analyses performed in selected Dodd-Frank Act rule-
general who is a member of CIGFO and a summary           makings;	and	the	June	15,	2011,	report	on	the	SEC’s	
of the general observations of CIGFO.                    establishment of an Office of Minority and Women
                                                         Inclusion as required by the Dodd-Frank Act. The
During this reporting period, the SEC Inspector Gen­     SEC	OIG’s	submission	also	discussed	planned	over­
eral attended a CIGFO meeting held on December 8,        sight	work,	including	an	audit	of	the	SEC’s	processes	
2011, and an SEC OIG staff member participated in        related to tips, complaints, and referrals received by
CIGFO’s	conference	calls.	In	addition,	the	SEC	OIG	      the Commission and a study of the whistleblower
provided its submission for inclusion in the CIGFO       protections established by the Dodd-Frank Act.




12   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Audits and Evaluations

OVERVIEW                                                 Audits



T
         he OIG is required by the Inspector General     Audits examine operations and financial transac­
         Act of 1978, as amended, to conduct audits      tions to ensure that proper management practices
         and evaluations of agency programs, opera­      are being followed and resources are adequately
tions,	and	activities.	The	OIG’s	Office	of	Audits	       protected in accordance with governing laws and
focuses its efforts on conducting and supervising        regulations. Audits are systematic, independent,
independent audits and evaluations of the programs       and documented processes for obtaining evidence.
and operations of the various SEC divisions and          In general, audits are conducted when firm criteria
offices. The Office of Audits also hires independent     or data exist, sample data are measurable, and test­
contractors	and	subject	matter	experts	to	conduct	       ing	internal	controls	is	a	major	objective.	Auditors	
work on its behalf. Specifically, the Office of Audits   collect and analyze data and verify agency records
conducts audits and evaluations to determine             by obtaining supporting documentation, issuing
whether                                                  questionnaires, and through physical inspection.

•	   there	is	compliance	with	governing	laws,	           The	OIG’s	audit	activities	include	performance	
     regulations, and policies;                          audits of SEC programs and operations relating
•	   resources	are	safeguarded	and	appropriately	        to areas such as the oversight and examination of
     managed;                                            regulated entities, the protection of investor inter­
•	   funds	are	expended	properly;                        ests, and the evaluation of administrative activities.
•	   desired	program	results	are	achieved;	and           The Office of Audits conducts its audits in accor­
•	   information	provided	by	the	agency	to	the	          dance with generally accepted government auditing
     public and others is reliable.                      standards (Yellow Book) issued by the Comptroller
                                                         General of the United States, OIG policy, and guid­
Each year, the Office of Audits prepares an annual       ance issued by the Council of the Inspectors General
audit plan. The plan includes work that is selected      on Integrity and Efficiency (CIGIE).
for audit or evaluation based on risk and materiality,
known or perceived vulnerabilities and inefficien­       Evaluations
cies, resource availability, and complaints received     The Office of Audits also conducts evaluations of
from Congress, internal SEC staff, the Government        SEC programs and activities. Evaluations consist
Accountability Office (GAO), and the public.             of reviews that often cover broad areas and are




                                                         OCTOBER 1, 2011–MARCH 31, 2012                  |   13
typically designed to produce timely and useful           rulemakings, it gave the SEC varying degrees of dis­
information associated with current or anticipated        cretion to determine the content of particular rules.
problems. Evaluations are generally conducted
when	a	project’s	objectives	are	based	on	specialty	       On May 4, 2011, the SEC OIG received a letter
and highly technical areas, criteria or data are not      from several members of the U.S. Senate Committee
firm, or needed information must be reported in a         on Banking, Housing, and Urban Affairs request­
short period of time. Office of Audits evaluations        ing that the Inspector General review the economic
are conducted in accordance with OIG policy, Yel­         analyses performed by the SEC in connection with
low Book nonaudit service standards, and guidance         six specific rulemaking initiatives undertaken pursu­
issued by CIGIE.                                          ant to the Dodd-Frank Act.

Audit Follow-Up and Resolution                            On June 13, 2011, the OIG released a report on the
During this semiannual reporting period, SEC              results of its initial assessment of the cost-benefit
divisions and offices made significant efforts to         analyses conducted for these six rulemakings (the
reduce the backlog of open recommendations while          phase I review). The OIG concluded that the SEC
ensuring that the most recent recommendations             had conducted a systematic cost-benefit analysis
were fully implemented. Based on the appropriate          for each of the six rules, but found that the level of
evidence and documentation provided to the OIG            involvement of the Division of Risk, Strategy, and
by management to support its implementation of            Financial Innovation (RiskFin) varied considerably
OIG recommendations, the OIG closed 86 recom­             from rulemaking to rulemaking. In addition, the
mendations related to 15 different Office of Audits       phase I review found a lack of macro-level analysis
reports during this semiannual reporting period.          and a lack of quantitative analysis on the impact of
                                                          the rules. In the report on phase I, the OIG stated its
                                                          intention to further analyze these areas.
AUDITS AND EVALUATIONS CONDUCTED
                                                          The	OIG’s	follow-up,	or	phase	II,	analysis	exam­
Follow-Up Review of Cost-Benefit Analyses in              ined the economic analyses performed by the SEC
Selected SEC Dodd-Frank Act Rulemakings                   in connection with five additional Dodd-Frank Act
(Report No. 499)                                          rulemakings. For this phase II report, as for the
                                                          phase I report, the OIG retained an expert, Albert
                BACKGROUND                                S.	Kyle,	to	assist	with	the	review	of	SEC	cost-benefit	
The Dodd-Frank Wall Street Reform and Con­                analyses	in	Dodd-Frank	Act	rulemakings.	Profes­
sumer	Protection	Act	(Dodd-Frank	Act)	was	signed	         sor	Kyle	is	the	Charles	E.	Smith	Chair	Professor	of	
into law on July 21, 2010. The law reformed the           Finance	at	the	University	of	Maryland’s	Robert	H.	
financial regulatory system, including how financial      Smith School of Business.
regulatory agencies operate. Among other things,
the Dodd-Frank Act required the SEC to undertake          The	overall	objectives	of	the	phase	II	review	were	to:
a significant number of studies and rulemakings,
including regulatory initiatives addressing deriva­       •	   assess	whether	the	SEC	is	performing	cost-
tives; asset securitization; credit rating agencies;           benefit analyses for rulemaking initiatives that
hedge funds, private equity funds, and venture capi­           are statutorily required under the Dodd-Frank
tal funds; municipal securities; clearing agencies; and        Act in a consistent manner across SEC divisions
corporate governance and executive compensation.               and offices and in compliance with applicable
Although the Dodd-Frank Act mandated specific                  federal requirements and




14   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
•	   determine	whether	problematic	areas	exist	         costs and benefits of an alternative “normally will
     where rigorous cost-benefit analyses were not      be	a	‘no	action’	baseline.”	Therefore,	to	the	extent	
     performed for rulemaking initiatives and where     that the SEC performs cost-benefit analyses only for
     improvements are needed and best practices         discretionary rulemaking activities, in the opinion
     can be identified to enhance the overall method­   of	Professor	Kyle,	the	SEC	may	not	be	fulfilling	the	
     ology used to perform cost-benefit analyses.       essential purposes of such analyses—providing a
                                                        full picture of whether the benefits of a regulatory
                    R E S U LT S                        action	are	likely	to	justify	its	costs	and	discovering	
Based on its review of the cost-benefit analyses        which regulatory alternatives would be the most
performed for the rulemakings selected, the OIG         cost-effective.
found overall that SEC rulemaking teams consis­
tently adhered to internal policies for preparing       The SEC sometimes used multiple baselines in its
cost-benefit analyses and, as a result, the cost-       cost-benefit analyses that were ambiguous or inter­
benefit analyses followed a systematic process          nally	inconsistent.	For	example,	in	the	SEC’s	interim	
from inception to completion. However, the OIG          final temporary rule for registration of municipal
identified the significant issues, summarized below,    advisors, portions of the cost-benefit analysis
during its review.                                      assumed as a baseline a minimal registration process
                                                        that would allow municipal advisors to continue
The extent of quantitative discussion of cost-benefit   their usual activities with limited disruption. How­
analyses varied among rulemakings, and none of          ever, other parts of the cost-benefit analysis assumed
the rulemakings examined in the phase II review         that municipal advisors would be required to cease
attempted to quantify either benefits or costs other    their advisory activities in the absence of a registra­
than information collection costs as required by the    tion process, resulting in a shutdown of the munici­
Paperwork	Reduction	Act.	In	addition,	Professor	        pal advisory market.
Kyle	opined	on	the	crucial	role	that	economists	play	
in ensuring that cost-benefit analyses incorporate      There was often considerable overlap between the
both qualitative and quantitative information.          cost-benefit analyses and efficiency, competition,
                                                        and capital formation sections of the releases for
In its cost-benefit analyses for Dodd-Frank Act rule-   Dodd-Frank Act regulations, and we found that
makings, the SEC generally focused on discretionary     redundancy could be reduced by combining these
components—portions of rulemakings in which the         two sections.
Commission	is	able	to	exercise	choice.	Professor	
Kyle	opined	that	in	addition	to	satisfying	statutory	   Some SEC Dodd-Frank Act rulemakings lacked
requirements, a cost-benefit analysis is intended to    clear,	explicit	explanations	of	the	justification	for	
inform the public and other parts of government,        regulatory action. Specifically, some of the rulemak­
including Congress, of the effects of alternative       ings that were premised on market failure alluded
regulatory actions. While a September 2010 memo­        to market failure but did not explicitly cite it as a
randum from the former SEC General Counsel              justification	or	fully	discuss	it.	Other	rulemakings	
took the view that where the SEC has no discre­         included language that erroneously suggested a
tion, there are no choices to explain, OMB Circular     market	failure	justification	and	contained	no	com­
A-4, which provides guidance to executive agencies      pelling alternative rationale in support of the action.
on conducting cost-benefit analyses required by         OMB Circular A-4 identifies market failure as one
Executive Order 12866, specifies that the baseline      of	several	possible	justifications	for	federal	agency	
agencies should establish for use in defining the       regulation. In discussing this point, the circular




                                                        OCTOBER 1, 2011–MARCH 31, 2012                    |   15
provides that an agency must demonstrate that           (3)	 SEC rulemaking teams should generally use a
proposed action is necessary before recommending             single, consistent baseline in the cost-benefit
regulatory	action,	citing	Executive	Order	12866’s	           analyses of their rulemakings related to a
requirement that agencies “promulgate only such              particular topic. The baseline being used should
regulations as are required by law, are necessary to         be specified at the beginning of the cost-ben­
interpret the law, or are made necessary by com­             efit analysis section. If multiple baselines are
pelling need, such as material failures of private           appropriate, such as for evaluating alterna­
markets to protect or improve the health and safety          tive	approaches	or	explaining	the	SEC’s	use	of	
of the public, the environment, or the well being            discretion, they should also be explained and
of	the	American	people.”	According	to	Professor	             justified.	
Kyle,	a	more	focused	discussion	of	market	failure	
in cost-benefit analyses would lay out the rationale    (4) SEC rulewriting divisions should consider
for regulation more clearly to Congress, the general        discontinuing the practice of drafting separate
public, and the SEC itself.                                 cost-benefit analysis and efficiency, competi­
                                                            tion, and capital formation sections and instead
Although	some	of	the	SEC’s	Dodd-Frank	Act	rule-             provide a more integrated discussion of these
makings may result in significant costs or benefits         issues in rule releases.
to the Commission itself, internal costs and benefits
were rarely addressed in the cost-benefit analyses.     (5) The Commission should consider directing rule-
According	to	Professor	Kyle,	however,	considering	          making teams to (a) explicitly discuss market
internal administrative costs and benefits is consis­       failure	as	a	justification	for	regulatory	action	
tent with the purposes of a cost-benefit analysis and       in the cost-benefit analysis of each rule that is
provides a more complete picture of economic costs          based in whole or in part on perceived market
and benefits associated with government regulation.         failure or (b) in the absence of market failure,
                                                            demonstrate a compelling social purpose that
          R E C O M M E N D AT I O N S                      justifies	regulatory	action.
Based on the results of our review, the OIG issued
its report on January 27, 2012, and made the fol­       (6) SEC rulemaking teams should consider includ­
lowing recommendations:                                     ing internal costs and benefits in the cost-benefit
                                                            analyses of rulemakings.
(1) SEC rulewriting divisions and RiskFin should
    consider ways for economists to provide addi­       Management ultimately concurred with all of the
    tional input into cost-benefit analyses for SEC     report’s	six	recommendations.	This	report	is	avail­
    rulemakings to assist in including both quanti­     able	on	the	OIG’s	website	at	http://www.sec-oig.
    tative and qualitative information to the extent    gov/Reports/AuditsInspections/2012/499.pdf.
    possible.

(2) The Office of the General Counsel, in consulta­     SEC’s Use of Justifications and Approvals in
    tion with RiskFin, should reconsider its guid­      Sole-Source Contracting (Report No. 507)
    ance that the SEC should perform economic
    analyses for rulemaking activities to the extent                   BACKGROUND
    that the SEC exercises discretion and should        In testimony on July 6, 2011, before the House
    consider whether a pre-statute baseline should      Transportation and Infrastructure Committee,
    be used whenever possible.                          Subcommittee	on	Economic	Development,	Public	




16   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Buildings and Emergency Management, the former             The SEC primarily uses three of these circumstances
SEC Inspector General informed the subcommittee            as	justification	for	other	than	full	and	open	competi­
that	the	OIG	would	conduct	an	audit	of	the	SEC’s	          tion: FAR § 6.302-1, FAR § 6.302-2, and FAR §
use	of	justifications	and	approvals	(J&A)	in	sole-         6.302-3 (specifically for expert services).
source	contracting.	The	subject	of	the	hearing	was	
the	OIG’s	investigation	regarding	the	SEC’s	lease	for	     The	SEC’s	Office	of	Administrative	Services	(OAS),	
900,000 square feet of office space at Constitution        Office of Acquisitions (OA) consists of a policy
Center, costing approximately $556.8 million over          branch and four contracting branches that are
10	years.	Prominent	in	the	leasing	investigation	was	      staffed with contracting officers and contracting
a J&A that was alleged to have been improperly             specialists. In addition, OAS has delegated senior
used to support the sole-source contracting action         officials	in	the	SEC’s	regional	offices	the	authority	
for the Constitution Center lease. In addition, the        to enter into and modify contracts with vendors
OIG	received	complaints	about	the	SEC’s	use	of	            on	behalf	of	the	Commission	subject	to	certain	
J&As. As a result, the OIG conducted this audit            limitations. OA has taken positive steps to increase
based on improprieties found in the leasing investi­       competition in contracting at the SEC, as indicated
gation and complaints alleging similar improprieties.      by significant increases in the contract dollars the
                                                           Commission competed from fiscal years 2009 to
A sole-source acquisition is a contract that an agency     2011.
enters into, or proposes to enter into, after soliciting
and negotiating with only one source (vendor). With        The	overall	objective	of	the	audit	was	to	assess	the	
limited exceptions, a sole-source contract requires        SEC’s	use	of	J&As	in	contracting.	Specific	audit	
a J&A. The Federal Acquisition Regulation (FAR)            objectives	were	to	assess	the	following:
sets forth the policies and procedures and identifies
the statutory authorities that must be applied when        •	   OA’s	approval	processes	and	procedures	for	
contracts are not awarded under full and open com­              J&As, including the roles of contracting offi­
petition. According to the FAR, agencies may engage             cials and legal counsel;
in contracting without providing for full and open         •	   whether	applicable	federal	statutes	and	regu­
competition under the following circumstances:                  lations	and	OA’s	policies	and	procedures	are	
                                                                followed in preparing and approving J&As;
•	   Only	one	responsible	source	and	no	other	             •	   whether	J&As	are	appropriately	used	under	
     supplies or services will satisfy agency require­          the circumstances presented; and
     ments (FAR § 6.302-1)                                 •	   whether	the	use	of	J&As	has	impacted	
•	   Unusual	and	compelling	urgency	                            competition.
     (FAR § 6.302-2)
•	   Industrial	mobilization;	engineering,	devel­                              R E S U LT S
     opmental, or research capability; or expert           The OIG reviewed a sample of 64 sole-source
     services (FAR § 6.302-3)                              contracts, with a total contract value of approxi­
•	   International	agreement	(FAR	§	6.302-4)               mately $10 million, that the SEC awarded in fiscal
•	   Authorized	or	required	by	statute	                    years 2009 to 2011. Five of the 64 sole-source
     (FAR § 6.302-5)                                       contracts, which were awarded by a regional office
•	   National	security	(FAR	§	6.302-6)                     director, did not have approved, written J&As,
•	   Public	interest	(FAR	§	6.302-7)                       as required by FAR §§ 6.303 and 6.304. Further,
                                                           the OIG found another 3 of the 64 contracts had




                                                           OCTOBER 1, 2011–MARCH 31, 2012                   |    17
J&As that were signed by the contracting officer          Finally,	the	OIG	found	that	OA’s	current	internal	
after the contract had been awarded. Finally, the         guidance for preparing J&As is potentially confus­
OIG found that OA awarded a contract in 2010              ing to its contracting officers and contract specialists
that	required	the	competition	advocate’s	review	          who prepare J&As. Over the past few years, OA
and approval, but did not have the competition            management has issued guidance regarding J&A
advocate’s	signature.	                                    policy and procedures to its staff. However, some
                                                          of	this	guidance	has	been	withdrawn	and	OA’s	con­
During the audit, the OIG also found that a sole-         tracting officers and contract specialists indicated
source contract was awarded using the authority           confusion about the guidance they should use for
for	“unusual	and	compelling	urgency”	that	did	            processing J&As.
not comply with FAR requirements. The circum­
stances identified in the J&A supported the use of                  R E C O M M E N D AT I O N S
this authority; however, the contract exceeded the        Based on the results of its audit, the OIG issued its
authorized period of performance allowed under            report on March 28, 2012, and recommended the
FAR § 6.302-2. For sole-source contracts awarded          following:
using the unusual and compelling urgency author­
ity, the period of performance is limited to the time     (1) OA should review contracting operations at
necessary to perform the urgent work under the                the regional office where sole-source contracts
contract and the time the agency needs to enter into          were identified as having no J&As. OA should
another contract for the required goods and services          further provide training to staff involved in
through the use of competitive procedures. This               the procurement process to ensure that they
time cannot exceed one year unless the head of the            are familiar with competition requirements
agency determines that exceptional circumstances              in contracting, when sole-source contracting
apply.                                                        is appropriate, and how to properly prepare
                                                              J&As.
Additionally, with respect to the sole-source
contracts that cited FAR § 6.302-3 (for obtaining         (2) OA should establish procedures to regularly
expert services), the OIG found that most vendors             review a sample number of regional office con­
received multiple contracts with the SEC, that the            tracts to ensure that their contracting practices
typical statements used in the expert witness J&As            comply with the FAR and Commission regula­
related to removing barriers to competition lacked            tions and operating procedures.
real substance, and that any market research was
limited	and	informal.	The	SEC’s	selection	of	expert	      (3) OA should review all open sole-source con­
witnesses is affected by variables such as witness            tracts awarded using FAR § 6.302-2, Unusual
expertise, availability, willingness to testify for the       and Compelling Urgency, that are over the
SEC,	courtroom	demeanor,	and	the	trial	attorney’s	            simplified acquisition threshold and ensure that
confidence in the expert witness. Further, the unpre­         each	contract’s	period	of	performance	does	not	
dictable timeline of a trial can result in an unex­           exceed	one	year.	If	any	contract’s	period	of	per­
pected and urgent need for an expert witness. These           formance exceeds one year, OA should modify
circumstances tend to limit the pool of potential             the period of performance or obtain required
witnesses for particular cases. As a result, the SEC          approval from the Chairman for exceptional
may not be receiving the best value available for all         circumstances.
of its expert witness contracts.




18   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
(4) OA should conduct an assessment of the              Part	45	of	the	FAR	defines	government-furnished	
    manner in which vendors are chosen as expert        property	(GFP)	as	property	in	the	possession	of,	or	
    witnesses using FAR § 6.302-3 for sole-source       directly acquired by, the government and subse­
    contracts and examine whether opportunities         quently furnished to a contractor for performance
    exist to expand the vendor competition base.        of	a	contract.	It	defines	CAP	as	property	acquired,	
                                                        fabricated, or otherwise provided by a contractor
(5) OA should publish comprehensive policies            for performing a contract and to which the govern­
    and procedures governing the J&A process at         ment	has	title.	Examples	of	GFP	include	servers	and	
    the Commission. This guidance should reflect        machinery the government provides to a contractor
    a thorough analysis of the current process to       to	use	at	the	contractor’s	facility	to	fulfill	contract	
    determine if it includes sufficient controls to     requirements. For the purposes of Report No. 503,
    ensure that J&As comply with federal statutes       GFE	and	CAP	were	referred	to	as	GFP.	
    and regulations and are appropriately used
    under the circumstances presented.                  When	the	SEC	issues	GFP	to	a	contractor,	the	con-
                                                        tractor is required to manage and account for it in
(6) OA should communicate its policies and              accordance with the FAR and to have a system to
    procedures governing the J&A process at the         manage it. The contractor should initiate and main­
    Commission to contracting officers and contract     tain the processes, systems, procedures, records,
    specialists and provide training as necessary. OA   and methodologies necessary for effective control of
    should properly notify its staff when previously    GFP	in	its	possession.	
    issued OA guidance (policies and procedures)
    and administrative regulations are revised,         The	overall	objective	of	the	audit	was	to	determine	
    superseded, or no longer available for use.         whether	sufficient	management	controls	over	GFP	
                                                        held by contractors were in place and operating
Management	concurred	with	all	of	the	report’s	rec­      effectively.	The	specific	audit	objectives	were	to	
ommendations. The report is available on the OIG        determine whether
website at http://www.sec-oig.gov/Reports/Audits­
Inspections/2012/507.pdf.                               •	   the	SEC	has	reliable	records	to	assess	which	
                                                             contractors	have	received	GFP	and	the	dollar	
                                                             value of the assets provided;
SEC’s Controls Over Government Furnished                •	   contracting	officer’s	representatives	or	others	
Equipment and Contractor Acquired Property                   responsible for administration of property are
(Report No. 503)                                             properly trained and perform their required
                                                             duties in accordance with SEC policy;
               BACKGROUND                               •	   contractors	that	were	provided	GFP	by	the	SEC	
The SEC OIG contracted with Castro & Company,                have performed annual inventories of property
LLC,	to	conduct	an	audit	of	the	SEC’s	government-            in accordance with their contracts and the FAR;
furnished equipment (GFE) and contractor-acquired       •	   SEC	contractors	that	were	provided	GFP	by	the	
property	(CAP)	and	to	identify	potential	areas	for	          SEC have adequate policies and procedures for
improvement. The scope of the audit primarily                management and disposal of property, includ­
covered OAS, the Office of Information Technology            ing sanitization and disposal of information
(OIT), and OFM.                                              technology property such as media, magnetic
                                                             tapes, removable media, and hard drives,
                                                             which can contain sensitive data; and




                                                        OCTOBER 1, 2011–MARCH 31, 2012                    |   19
•	   assets	held	by	contractors	are	properly	            (2) OIT should revise its policy to specify how
     accounted	for	and	reported	in	the	SEC’s	                often the office will conduct wall-to-wall
     financial statements.                                   inventories	of	the	SEC’s	information	technology	
                                                             equipment and how frequently the Configura­
                    R E S U LT S                             tion Management Database (CMDB) should be
Castro and Company, LLC, made the following                  updated.
findings during its audit:
                                                         (3)	 OIT should coordinate with the contract­
•	   OAS	and	OIT	could	not	identify	the	universe	             ing	officer’s	representative	or	other	property	
     of property issued to contractors that was               accountability officer, as designated in the con­
     designated	as	GFP,	and	they	have	not	clearly	            tract, to ensure that government-issued prop­
     defined	property	that	is	considered	GFP.	As	             erty items are properly returned to OIT and the
     a consequence, there is an increased risk that           items are promptly removed from the CMDB
     the SEC is not complying with the FAR, and               when the contractor is no longer using them or
     property that is lost, stolen, or misused may not        when the contract is no longer active.
     be detected.                                        (4) OIT should develop and implement proce­
•	   The	database	used	to	track	and	monitor	infor­            dures for monitoring information technol­
     mation technology equipment is not reliable              ogy equipment at the regional offices that are
     because its controls are insufficient and do not         communicated to appropriate personnel. These
     ensure that the information in the database is           procedures	should	address	the	regional	offices’	
     accurate and complete.                                   roles in monitoring information technology
•	   OIT	has	not	completed	a	timely	inventory	of	             equipment issued to contractors, including their
     the	SEC’s	information	technology	equipment	              responsibilities when a contractor employee
     and lacks up-to-date information technology              exits a contract or when the equipment is
     equipment policies and procedures.                       moved to a new location.
•	   Contracting	officers,	contract	specialists,	and	
     contracting	officer’s	representatives	are	not	      (5) OIT should revise its policies and procedures
     properly	trained	regarding	their	GFP	                   to establish clear accountability within the
     responsibilities.                                       Asset Management Branch that is associ­
                                                             ated with properly tracking and monitoring
          R E C O M M E N D AT I O N S                       information technology equipment, includ­
Based on the results of the audit, the OIG issued its        ing documenting the issuance and receipt of
report on March 28, 2012, and made the following             information technology equipment to specific
recommendations:                                             Commission contractors.

(1)	 OAS,	in	conjunction	with	OIT,	should	revise	        (6) When OIT completes the 2012 wall-to-wall
     SECR	9-3,	Report	of	Survey	Program,	and	                inventory of information technology equip­
     SECR	9-2,	Property	Management	Program,	                 ment, it should use this information to establish
     and clearly define property that is designated as       a baseline of the equipment in the CMDB.
     GFP.	OAS	and	OIT	should	further	identify	in	
     SECR 9-3 and 9-2 the particular circumstances       (7)	 OAS,	in	conjunction	with	OIT,	should	develop	
     that	are	needed	to	meet	the	GFP	requirements	            periodic training for contracting officers, con­
     in	accordance	with	Part	45	of	the	FAR.                   tract	specialists,	and	contracting	officer’s	rep­
                                                              resentatives that clearly defines and addresses




20   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
    their	responsibilities	related	to	GFP	consistent	    audit logs, and the OIG documented the results of
    with	Part	45	of	the	FAR,	Government	Property,	       the assessment in Report No. 497, Assessment of
    and	SECR	9-2,	Property	Management	Program.           SEC’s	Continuous	Monitoring	Program.	During	its	
                                                         assessment, C5i was unable to verify whether all log
(8) OAS should ensure that when the Commis­              settings and user activities were being captured for
    sion	issues	GFP	to	contractors,	the	contracting	     all servers. As a result, in May 2011, the OIG modi­
    officer (and where appropriate the contract          fied its contract with C5i to include an assessment
    specialist) includes language in the contract that   designed to determine whether audit log data were
    specifies                                            being captured consistent with the requirements of
                                                         the Federal Information Security Management Act
    •	   the	name	of	the	equipment;                      of	2002	(FISMA),	Federal	Information	Processing	
    •	   what	equipment	will	be	retained,	disposed	      Standards	(FIPS)	and	National	Institute	of	Stan­
         of, or returned to the government;              dards and Technology (NIST) guidelines.
    •	   when	the	equipment	will	be	disposed	of	or	
         returned to the government; and                 The	overall	objective	of	the	review	was	to	indepen­
    •	   who	can	accept	the	returned	equipment.          dently evaluate and report on how the Commission
                                                         has implemented information security requirements
(9)	 OIT	should	issue	GFP	to	contractors	only	after	     for audit log management, including the genera­
     it	obtains	proof	that	the	vendor’s	contract	has	    tion, review, protection, and retention of audit logs.
     language authorizing the contractor to receive      An	additional	objective	was	to	review	system	and	
     the equipment.                                      network logs in the SEC enterprise network, access
                                                         controls to logs, controls over log management and
Management	concurred	with	all	of	the	report’s	rec­       analysis, data log collection, and log storage.
ommendations. The report is available on the OIG
website at http://www.sec-oig.gov/Reports/Audits­                            R E S U LT S
Inspections/2012/503.pdf.                                During the assessment, C5i found the following:
                                                         (1) some servers were not logging auditable events;
                                                         (2)	OIT’s	policies	and	procedures	for	audit	log	
Assessment of SEC’s System and Network                   capture and management were outdated and did
Logs (Report No. 500)                                    not clearly define required components such as roles
                                                         and responsibilities; (3) servers identified as decom­
               BACKGROUND                                missioned	were	still	actively	connected	to	the	SEC’s	
In August 2010, the SEC OIG contracted with C5i          enterprise networks and still accessible, and at least
Federal, Inc. (C5i), to assist with the completion       one of the decommissioned servers was not logging
and	coordination	of	the	OIG’s	input	to	the	Com­          auditable events; (4) logs were not generated con­
mission’s	response	to	OMB	Memorandum	10-15,	             sistently for application databases because the audit
FY 2010 Reporting Instructions for the Federal           trail functionality built into the database was not
Information Security Management Act and Agency           always	available,	resulting	in	OIT’s	inability	to	cap­
Privacy	Management.	The	response	was	submitted	          ture	logs	for	all	auditable	events;	and	(5)	OIT’s	Serv­
to OMB in November 2010 and reported on by               ers	and	Storage	Branch	and	OIT’s	Security	Branch	
the OIG in Report No. 489, 2010 Annual FISMA             did not have an alerting mechanism to notify appro­
Executive Summary Report. As part of its work,           priate personnel when some servers were full or had
C5i	assessed	and	reviewed	the	SEC’s	continuous	          stopped performing logging functions.
monitoring of information technology operations




                                                         OCTOBER 1, 2011–MARCH 31, 2012                   |   21
           R E C O M M E N D AT I O N S                   (6) OIT should conduct a review of application
On March 16, 2012, the OIG issued its report con­             database log management and generation
taining the following eight recommendations:                  procedures to ensure that audit events are being
                                                              captured and retained, consistent with OIT
(1) OIT should identify capacity requirements                 policies and procedures and NIST guidelines.
    for all servers, ensure that sufficient capacity
    is available for the storage of audit records,        (7) OIT should implement a mechanism to notify
    configure auditing to reduce the likelihood that          OIT’s	Server	and	Storage	Branch	or	OIT’s	
    capacity will be exceeded, and implement an               Security Branch when servers stop performing
    alerting mechanism to alert and notify appro­             certain necessary functions.
    priate office/divisions when log storage capacity
    is reached.                                           (8) OIT should implement its plan to develop a
                                                              computer script that determines whether servers
(2) When updating its policies and procedures, OIT            are producing certain necessary logs.
    should include log management language that
                                                          Management	concurred	with	all	of	the	report’s	rec­
     •	   identifies	the	roles	and	responsibilities	of	   ommendations. The report is available on the OIG
          staff who are involved in log management,       website at http://www.sec-oig.gov/Reports/Audits­
     •	   requires	server	logs	to	be	periodically	        Inspections/2012/500.pdf.
          reviewed to check whether log capacity has
          been exceeded, and
     •	   requires	appropriate	OIT	officials	to	be	       2011 Annual FISMA Executive Summary
          notified when audit logging functions are       Report (Report No. 501)
          suspended when log storage capacity has
          reached its limit.                                             BACKGROUND
                                                          FISMA provides the framework for securing the
(3) OIT should review and update all logging poli­        federal	government’s	information	technology.	
    cies	and	procedures	consistent	with	the	policy’s	     FISMA emphasizes the need for organizations to
    review interval requirements and retain evidence      develop, document, and implement an organiza­
    of its reviews and any updates to the policy.         tion-wide program to provide security for the infor­
                                                          mation systems that support their operations and
(4) OIT should ensure that all servers connected          assets. All agencies must implement the require­
    to	the	Commission’s	enterprise	network	are	           ments of FISMA and report annually to OMB,
    configured to have logging enabled.                   using OMB-issued reporting instructions, on the
                                                          effectiveness of their information security and pri­
(5) OIT should update Server Decommission                 vacy programs. OMB uses the information to help
    Guidelines and include language to fully docu­        evaluate agency-specific and governmentwide infor­
    ment each action that should be performed             mation security and privacy program performance,
    when decommissioning a server. OIT should             develop its annual security report to Congress, help
    also develop a server decommissioning check­          improve and maintain adequate agency perfor­
    list to be included in the Server Decommission        mance, and develop the E-Government Scorecard
    Guidelines.                                           under	the	President’s	Management	Agenda.




22   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
In June 2011, the OIG contracted with Networking        had not formally defined a tailored set of baseline
Institute of Technology, Inc. (NIT), to assist with     security controls and had not tailored control sets for
the	OIG’s	response	to	OMB	Memorandum	11-33,	            specific systems; (4) OIT had not conducted con­
FY 2011 Reporting Instructions for the Federal          figuration compliance scans and lacked a process for
Information Security Management Act and Agency          addressing compliance scan results in a timely man­
Privacy	Management	Act,	which	provided	instruc­         ner; and (5) OIT had not implemented the technical
tions for meeting fiscal year 2011 FISMA reporting      solution	for	linking	Personal	Identity	Verification	
requirements.                                           (PIV)	cards	to	multifactor	authentication.	

The 2011 FISMA assessment addressed the follow­                   R E C O M M E N D AT I O N S
ing security requirements:                              On February 2, 2012, the OIG issued a final report
                                                        containing	the	review’s	findings	and	the	following	
•	   risk	management                                    13 recommendations to address those findings:
•	   configuration	management
•	   incident	response	and	reporting                    (1) OIT should develop and implement a detailed
•	   security	training                                      plan to review and update OIT security policies
•	   evaluation	of	agency	plan	of	action	and	mile­          and procedures and to create OIT security poli­
     stones process                                         cies and procedures for areas that lack formal
•	   remote	access	management                               policies and procedures.
•	   identity	and	access	management
•	   continuous	monitoring	management                   (2) OIT should develop a comprehensive risk
•	   contingency	planning                                   management strategy in accordance with the
•	   agency	oversight	of	contractor	systems                 NIST Guide for Applying the Risk Manage­
•	   security	capital	planning                              ment Framework to Federal Information
                                                            Systems: A Security Life Cycle Approach that
NIT	reviewed	and	evaluated	the	Commission’s	                will ensure that management of system-related
implementation of information security require­             security risks is consistent with the Commis­
ments and provided the OIG with the results of              sion’s	mission/business	objectives	and	overall	
its assessment and its recommended responses for            risk strategy.
submission	to	OMB	through	OMB’s	online	FISMA	
reporting system and for compiling the 2011 FISMA       (3) OIT should update its current risk management
Executive	Summary	Report.	NIT’s	review	included	            policy to include language regarding develop­
interviewing key OIT personnel and examining poli­          ing a comprehensive governance structure and
cies, procedures, and related documentation.                ensure that management of system-related
                                                            security risks is consistent with the Commis­
                    R E S U LT S                            sion’s	mission/business	objectives	and	overall	
During the review, NIT made the following five key          risk strategy.
findings:		(1)	OIT’s	FISMA	policies	and	procedures	
were	outdated	or	nonexistent;	(2)	OIT’s	risk	man­       (4) OIT should develop and implement a formal
agement policy did not adhere to requirements for           risk management procedure that identifies
a comprehensive governance structure and organi­            an acceptable process for evaluating system
zational overall risk management strategy and did           risk	and	is	consistent	with	the	Commission’s	
not address risk from a mission and business process        mission/business	objectives	and	overall	risk	
perspective, as described in NIST guidelines; (3) OIT       strategy.




                                                        OCTOBER 1, 2011–MARCH 31, 2012                   |   23
(5)	 OIT should develop and implement a formal           (11) OIT should update its policy and include
     policy that addresses tailoring baseline security        language indicating that deviations from the
     control sets.                                            baseline configurations that are identified and
                                                              documented as a result of the configuration
(6)	 OIT should determine whether it should                   compliance scans are properly remediated in a
     perform the tailoring process at the organiza­           timely manner.
     tion level for all information systems (either as
     the required tailored baseline or as the starting   (12) OIT should provide a new date to OMB for
     point for system-specific tailoring) at the              implementing the technical solution for linking
     individual information system level, or using a          multifactor	authentication	to	PIV	cards	for	
     combination of organization-level and system-            system authentication.
     specific approaches.
                                                         (13) OIT should complete its implementation of
(7)	 OIT should tailor a baseline security controls           the technical solution for linking multifactor
     set (with rationale) for applicable systems in           authentication	to	PIV	cards	for	system	authen­
     accordance with the guidance provided by the             tication	and	require	use	of	PIV	cards	as	a	sec­
     NIST Guide for Applying the Risk Manage­                 ond authentication factor by December 2012.
     ment Framework to Federal Information
     Systems: A Security Life Cycle Approach, and        Management	concurred	with	all	of	the	report’s	rec­
     the NIST Recommended Security Controls for          ommendations. The report is available on the OIG
     Federal Information Systems and Organiza­           website at http://www.sec-oig.gov/Reports/Audits­
     tions.                                              Inspections/2012/501.pdf.

(8)	 OIT should review and update its configu­
     ration management policy to ensure that it          PENDING AUDITS AND EVALUATIONS
     complies with the requirements of FISMA
     and with the guidelines specified in the NIST       Review of SEC’s Continuity of Operations Plan
     Recommended Security Controls for Federal           A	continuity	of	operations	(COOP)	plan	is	essential	
     Information Systems and Organizations, as           for maintaining critical agency operations dur­
     well as with its internal requirements.             ing disruptions that affect normal operations. The
                                                         SEC’s	Office	of	the	Chief	Operating	Officer	recently	
(9)	 OIT should review and document its current          assumed	overall	responsibility	for	COOP	planning	
     standard baseline configuration, including          for	the	Commission.	The	SEC’s	Chief	Information	
     identification of approved deviations and           Officer has oversight responsibility for the disaster
     exceptions to the standard.                         recovery	component	of	the	SEC’s	COOP	plan.	

(10) OIT should conduct compliance scans of its          The	SEC	has	formal	COOP	policies	and	procedures	
     information technology devices, according           and	conducts	periodic	testing	of	its	COOP	plan.	
     to the organizationally defined frequency in        However, a recently issued OIG report found that
     the policy and procedures, to ensure that all       OIT failover testing for certain internal informa­
     devices	are	configured	as	required	by	OIT’s	        tion technology applications had been unsuccessful.
     configuration management policy and                 Another recently issued OIG report found that the
     procedures.                                         SEC’s	regional	offices	lacked	viable	COOP	plans	




24   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
and that the SEC had not tested the maximum user             member agencies and the Special Inspector General
limit	for	remote	access	to	the	SEC’s	network.                for	the	Troubled	Asset	Relief	Program).	CIGFO	
                                                             was established to (1) facilitate information sharing
The OIG contracted with TWM Associates, Inc.,                among the inspectors general of these entities, (2)
to	conduct	a	review	of	the	SEC’s	COOP	plan.	The	             provide a forum for discussing work as it relates
objectives	of	the	review	are	to	determine	whether	           to the broader financial sector, and (3) evaluate the
the	SEC	has	a	viable	COOP	plan	sufficient	to	                effectiveness and internal operations of FSOC.
support	the	SEC’s	operations	at	its	headquarters,	
Operations Center, Alternate Data Center, and 11             CIGFO has established a working group of inspec­
regional offices. TWM Associates, Inc., will also            tors general to examine the controls and protocols
determine whether the SEC is adequately prepared             that FSOC and its member agencies are using to
to perform essential functions during a business             ensure that FSOC-collected information, delibera­
continuity or disaster recovery event, such as a             tions, and decisions are properly safeguarded from
human or natural disaster, national emergency, or            unauthorized disclosure. Members of the CIGFO
technology	failure	that	could	affect	the	SEC’s	ability	      working	group	will	review	their	respective	agency’s	
to continue mission-critical and essential functions.        management and internal controls over sensitive and
                                                             proprietary information collected by and exchanged
                                                             with FSOC. These reviews will use a standard work
The SEC’s Controls Over Sensitive and Pro­                   program to ensure that working group members
prietary Information Collected and Exchanged                 take a consistent approach to their reviews. The
With the Financial Stability Oversight Council               inspectors general will relay their findings to their
The OIG has initiated an audit to identify the con­          respective FSOC member agencies, and CIGFO will
trols and protocols that the SEC uses to safeguard           incorporate the results of all FSOC member reviews
sensitive and proprietary information collected by           into a consolidated working group report.
and exchanged with the Financial Stability Over­
sight Council (FSOC). FSOC, which was created
by the Dodd-Frank Act, is charged with identifying           Assessment of the SEC’s Records
threats to the financial stability of the country, pro­      Management Practices
moting market discipline, and responding to emerg­           Congress established the National Archives and
ing	risks	that	could	affect	the	stability	of	the	nation’s	   Records Administration (NARA) in 1934 to cen­
financial	system.	FSOC’s	member	agencies	are	the	            tralize	federal	record	keeping.	NARA’s	mission	is	to	
Board of Governors of the Federal Reserve System,            serve the public by safeguarding and preserving the
the Commodity Futures Trading Commission, the                records of the U.S. government, ensuring that the
Federal Deposit Insurance Corporation, the Federal           people can discover, use, and learn from this docu­
Housing Finance Agency, the National Credit Union            mentary heritage. All federal agencies are required
Administration, the Office of the Comptroller of             to create a records management program that will
the Currency, the SEC, and the Department of the             enable them to properly maintain or dispose of their
Treasury.                                                    records with assistance from NARA.

The Dodd-Frank Act also created the Council                  Through	a	reorganization	in	July	2010,	the	SEC’s	
of Inspectors General on Financial Oversight                 Office of FOIA, Records Management, and Security
(CIGFO), which includes inspectors general from              assumed responsibility for the Office of Records
nine	major	federal	financial	entities	(the	eight	FSOC	       Management Services (ORMS). ORMS is respon-




                                                             OCTOBER 1, 2011–MARCH 31, 2012                  |   25
sible for coordinating, overseeing, and implement­        that may affect the Commission or the U.S. financial
ing	the	SEC’s	agencywide	records	management	              markets and advice on and analysis of actual or
program.                                                  proposed U.S. regulations that may have interna­
                                                          tional impact.
The OIG is conducting an audit to examine whether
ORMS                                                      OIA also serves as a focal point for international
                                                          travel by SEC staff. It reviews all foreign travel prior
•	   has	established	a	viable	records	management	         to its approval by the Office of the Chief Operating
     program that ensures that permanent SEC              Officer, obtains country clearances from the U.S.
     records are appropriately maintained and             Department of State and any visas that are required,
     preserved in accordance with applicable federal      and provides international travel guidance on the
     statutes and regulations; and                        SEC’s	internal	website.
•	   adheres	to	applicable	federal	statutes	and	
     regulations regarding the retention, disposal,       The OIG is currently conducting an audit of OIA to
     transfer, and recovery of SEC records.               assess whether OIA

Where appropriate, the OIG will identify areas for        •	   has	established	viable	policies,	procedures,	and	
improvement and best practices.                                controls for its program activities;
                                                          •	   effectively	tracks	and	processes	requests	for	
                                                               technical assistance and enforcement assistance
Assessment of the Operating Effectiveness of                   in a timely manner;
the Office of International Affairs                       •	   has	developed	a	program	that	ensures	SEC	
The Office of International Affairs (OIA) plans,               employees’	international	travel	is	appropriately	
develops, and conducts overseas and U.S.-based                 processed through OIA;
trainings and technical assistance for foreign regula­    •	   adequately	communicates	the	SEC’s	interna­
tory and law enforcement officials, generally from             tional travel requirements related procedures to
emerging securities markets. It provides advice on             SEC employees; and
and assists with cross-border securities investiga­       •	   appropriately	conducts	and	reports	its	staff’s	
tions and litigation originating from the Commis­              international travel in accordance with appli­
sion, mainly the Division of Enforcement, or from              cable federal regulations and internal policies
foreign securities regulators and law enforcement              and procedures.
agencies, utilizing multilateral, bilateral, and other
arrangements and understandings to facilitate infor­      Where appropriate, the OIG will identify areas for
mation gathering and sharing.                             improvement and best practices.

OIA participates in international policy initiatives in
large part through its involvement in standards-set­      Assessment of the SEC’s Hiring Practices for
ting organizations such as the International Orga­        Senior-Level Positions
nization of Securities Commissions, which have as         The OIG has received several complaints and allega­
their	objective	the	implementation	of	high-quality	       tions	related	to	the	SEC’s	failure	to	follow	estab­
multinational securities regulations and accounting,      lished policies and procedures in connection with
auditing, and enforcement policies and practices.         hiring or promoting some senior-level staff.
In addition, OIA provides advice on and analysis          As a result, the OIG is conducting an audit of the
of regulatory policy initiatives in foreign countries     Commission’s	hiring	practices	for	its	civil	service	




26   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
senior-level	positions.	The	objectives	of	the	audit	are	   broker-dealers, investment advisers, self-regulatory
to examine whether the Office of Human Resources           organizations, other government agencies, and for­
(OHR)                                                      eign regulators. Divisions and offices throughout the
                                                           SEC’s	Washington,	D.C.,	headquarters,	as	well	as	
•	   adheres	to	applicable	federal	statutes	and	regu­      the	SEC’s	11	regional	offices,	receive	TCRs,	which	
     lations and has developed and implemented             come in through a variety of means, including web
     policies and procedures to fill senior-level SEC      forms, e-mail, telephone, regular mail, and personal
     vacancies for competitive service positions,          interactions with SEC staff.
     excepted service positions, and senior officer
     positions;                                            As part of its mission to protect investors and ensure
•	   ensures	that	the	SEC’s	hiring	and	promotion	          market integrity, the SEC conducted a comprehen­
     practices are carried out in a fair and consistent    sive review of its processes for receiving, recording,
     manner and in accordance with applicable fed­         tracking, and taking action on TCRs. The review
     eral statutes and regulations and OHR policy          resulted in a comprehensive improvement plan that
     requirements;                                         addressed	the	SEC’s	policies,	processes,	and	infor­
•	   adequately	and	timely	communicates	its	hiring	        mation systems related to TCRs. In March 2011, as
     authority, decisions, and changes therein to          part of the improvement plan, the SEC implemented
     SEC staff responsible for processing hiring and       a new system to enable the SEC to gather TCRs
     promotion actions;                                    and support the internal business process to review,
•	   ensures	that	hiring	and	promotion	decisions	          analyze, qualify, and report on the TCRs submitted.
     are documented in accordance with applicable
     federal statutes and regulations; and                 The OIG will conduct an audit that examines the
•	   has	taken	appropriate	action,	in	accordance	          SEC’s	TCR	system	and	will	assess	
     with applicable federal statutes and regulations
     and OHR policy, when it has received notifica­        •	   whether	the	SEC	receives,	records,	tracks,	and	
     tion that SEC staff have been improperly hired             escalates TCR items in accordance with internal
     or promoted.                                               policies and procedures, laws, and regulations;
                                                           •	   the	accuracy	and	completeness	of	data	and	
                                                                reports generated from the TCR system; and
Audit of the SEC’s Tips, Complaints, and                   •	   the	controls	and	procedures	utilized	to	ensure	
Referrals System                                                the accuracy and completeness of the trans­
The SEC typically receives thousands of tips,                   fer of information from the old interim TCR
complaints, and referrals (TCR) every year from                 repository to the new TCR system.
investors and the general public, as well as from




                                                           OCTOBER 1, 2011–MARCH 31, 2012                  |   27
Investigations

OVERVIEW                                                   and answered 24 hours a day, 7 days a week. Com­



T
        he	OIG’s	Office	of	Investigations	responds	        plaints may also be made to the Hotline through an
        to allegations of violations of statutes, rules,   online complaint form, which is accessible through
        and regulations and other misconduct by            the	OIG’s	website.	In	addition	to	being	a	mecha­
SEC staff and contractors. The misconduct investi­         nism	for	receiving	complaints,	the	OIG’s	website	
gated ranges from criminal wrongdoing and fraud            provides the public with an overview of the work of
to violations of SEC rules and policies and the            the Office of Investigations, as well as links to some
governmentwide standards of conduct.                       investigative memoranda and reports issued by
                                                           the Office of Investigations. The OIG also receives
The Office of Investigations conducts thorough and         allegations from SEC employees of waste, abuse,
independent investigations into allegations received       misconduct, or mismanagement within the Com­
in accordance with CIGIE Quality Standards for             mission through the OIG SEC Employee Suggestion
Investigations and the OIG Investigations Manual.          Program,	which	was	established	pursuant	to	section	
The Investigations Manual contains the procedures          966 of the Dodd-Frank Act.
by which the OIG conducts its investigations and
preliminary inquiries and implements CIGIE Qual­           The OIG reviews and analyzes all complaints
ity Standards. The Investigations Manual sets forth        received to determine the appropriate course of
specific guidance on, among other things, OIG              action. In instances where it is determined that
investigative authorities and policies, investigator       something less than a full investigation is appropri­
qualifications, independence requirements, proce­          ate, the OIG may conduct a preliminary inquiry
dures for conducting investigations and preliminary        into the allegation. If the information obtained
inquiries, coordination with the U.S. Department of        during the inquiry indicates that a full investiga­
Justice (DOJ), and issuing reports of investigation.       tion is warranted, the Office of Investigations
                                                           will commence an investigation of the allegation.
The OIG receives complaints through the OIG                When an investigation is opened, the primary OIG
Complaint Hotline, an office electronic mailbox,           investigator assigned to the case prepares a com­
mail, facsimile, and telephone. The OIG Complaint          prehensive plan of investigation that describes the
Hotline consists of both telephone and web-based           focus and scope of the investigation, as well as the
complaint mechanisms. Complaints may be made               specific investigative steps to be performed during
anonymously by calling the Hotline, which is staffed       the investigation. The OIG investigator interviews




                                                           OCTOBER 1, 2011–MARCH 31, 2012                   |   29
the complainant whenever feasible and conducts           INVESTIGATIONS AND INQUIRIES
significant interviews under oath and on the record.     CONDUCTED
The OIG investigator may give assurances of confi­
dentiality to potential witnesses who have expressed     Destruction of Records and Related Incomplete
a reluctance to come forward.                            Statements (Report No. OIG-567)
                                                         On June 15, 2011, the OIG opened an investigation
Where allegations of criminal conduct are involved,      into	allegations	that	the	SEC’s	Division	of	Enforce­
the Office of Investigations notifies and works with     ment (Enforcement) improperly destroyed records
DOJ and the Federal Bureau of Investigation (FBI),       relating to matters under inquiry (MUI) over the
as appropriate. The OIG also obtains necessary           past two decades, and that the SEC made mislead­
investigative	assistance	from	the	SEC’s	Office	of	       ing statements in a response that was sent to the
Information Technology, including the prompt             National Archives and Records Administration
retrieval of employee e-mails and forensic analysis      (NARA)	concerning	the	SEC’s	potential	unauthor­
of computer hard drives. The OIG investigative staff     ized destruction of MUI records. After the OIG
also	consults	as	necessary	with	the	Commission’s	        opened this investigation, it was further alleged
Ethics Counsel to coordinate activities.                 that the SEC did not have the authority to destroy
                                                         three categories of documents that are currently not
Upon completion of an investigation, the OIG inves­      scheduled with NARA: (1) documents produced
tigator prepares a comprehensive report of investiga­    by third parties, (2) internal work product, and (3)
tion that sets forth in detail the evidence obtained     internal e-mails.
during the investigation. Investigative matters are
referred to SEC management and DOJ as appropri­          During this investigation, the OIG requested and
ate. The OIG does not publicly release its reports       reviewed numerous documents from Enforcement
of investigation because they contain nonpublic          and the Office of Records Management Services.
information. Decisions regarding whether an OIG          The OIG also obtained and searched the e-mails
investigative report should be publicly released, in     of 6 current and former SEC employees—a total
response to a Freedom of Information Act request or      of over 500,000 e-mails. The OIG took the sworn
otherwise, are made by the Commission.                   testimony of 11 current and former SEC employees
                                                         who had knowledge of the facts relevant to this
In many investigative reports provided to SEC            investigation. In addition, the OIG interviewed 12
management, the OIG makes specific findings and          current and former SEC employees, and one other
recommendations, including whether the OIG               individual.	The	OIG	further	reviewed	Enforcement’s	
believes disciplinary or other action should be          database records for MUIs. Finally, the OIG sought
taken. The OIG requests that management report           and received a written opinion from NARA on
back disciplinary or other actions taken in response     several issues that were related to MUI documents
to	the	OIG’s	recommendations	within	45	days	of	          and	the	SEC’s	response	to	NARA.
the issuance of the report. The OIG follows up as
appropriate with management to determine the sta­        The OIG issued a report of investigation to man­
tus of disciplinary action taken in matters referred     agement on October 5, 2011, which found that
by the OIG. The OIG may also make recommen­              for at least 30 years, Enforcement had opened
dations for improvements in policies, procedures,        MUIs	as	“pre-investigation	inquiries.”		MUIs	are	
and internal controls in its investigative reports and   distinct from formal investigations in Enforcement
closed 29 such investigative recommendations dur­        and, according to a memorandum from a former
ing the reporting period.                                Enforcement director, are “opened to collect and




30   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
analyze information to determine whether an             into the apparent unauthorized disposal of federal
enforcement	investigation	should	be	instituted.”		      records. However, the OIG found that in the process
The OIG investigation found that it had been            of drafting a response to NARA, the SEC made no
Enforcement’s	policy	from	1981,	when	MUIs	were	         inquiries to determine whether MUI records were
first created, until July 20, 2010, to dispose of all   in fact destroyed. Instead, Enforcement declared
documents related to MUIs that were closed with­        in a letter dated August 27, 2010, that it was “not
out becoming investigations. According to Enforce­      aware of any specific instances of the destruction of
ment, from October 1, 1992, to July 20, 2010,           records from any [MUIs that were closed without
Enforcement had opened 23,289 MUIs, and 10,468          a subsequent formal investigation], but [could not]
of these MUIs had been closed without becoming          say with certainty that no such documents have
an investigation or another MUI.                        been	destroyed	over	the	past	seventeen	years.”		

The	OIG	investigation	found	that	Enforcement’s	         The	OIG	found	that	the	SEC’s	August	27,	2010,	
case closing manual, which had been posted on           response to NARA did not comply with federal
Enforcement’s	intranet	since	at	least	2001,	specifi­    regulations because it did not provide “a complete
cally directed Enforcement attorneys as follows:        description of the records with volume and dates if
“After you have closed a MUI that has not become        known”	and	“a	statement	of	the	exact	circumstanc­
an investigation, you should dispose of any docu­       es surrounding the removal, defacing, alteration or
ments	obtained	in	connection	with	the	MUI.”	The	        destruction	of	records”	as	required	by	36	C.F.R.	
OIG did not find evidence of an improper motive         § 1230.14(a). In addition, the OIG found that the
behind	Enforcement’s	longstanding	policy	of	            SEC’s	response	to	NARA	omitted	information	
destroying documents related to closed MUIs that        important to understanding the scope and nature of
did not become investigations, although the ratio­      the issue related to the destruction of MUI records.
nale for the policy was unclear.                        Most	significantly,	the	SEC’s	response	omitted	the	
                                                        fact	that	it	had	been	Enforcement’s	policy	to	destroy	
The OIG investigation also found that Enforcement       all documents related to closed MUIs that did not
staff destroyed documents related to closed MUIs        become investigations. Despite the statement in the
that should have been preserved as federal records.     SEC’s	August	27,	2010,	response	letter	that	Enforce­
These documents included anonymous correspon­           ment was not aware of any specific instances of
dence and complaints, correspondence from the           the destruction of records from any MUI that was
SEC requesting documents from companies in the          closed without a subsequent formal investigation,
course of MUIs, and correspondence that accompa­        the OIG found that Enforcement was aware of at
nied	companies’	document	production	responses.	         least one specific instance when records from a MUI
However, notwithstanding these instances of record      closed without a subsequent formal investigation
destruction in connection with MUIs that were           were destroyed.
closed without becoming investigations, the OIG
was not aware of a particular investigation that was    The OIG investigation also found that although
hampered by the destruction of records for a MUI.       Enforcement, pursuant to its longstanding policy,
                                                        had destroyed three categories of documents that
The OIG investigation also found that after an SEC      are currently not scheduled (documents produced
Enforcement attorney informed NARA in June              by third parties, internal work product, and internal
2010 that the SEC had been destroying records           e-mails),	the	SEC’s	archivist	opined	that	these	docu­
relating to MUIs for years, NARA sent a letter to       ments were not records that were required to be
the SEC on July 29, 2010, asking the SEC to look        retained. Although it did not appear that the three




                                                        OCTOBER 1, 2011–MARCH 31, 2012                  |   31
categories of documents were improperly destroyed,       A	public	version	of	the	OIG’s	report	is	available	on	
the OIG recommended that the SEC seek formal             the	Commission’s	website	at	http://www.sec.gov/
guidance from NARA to ensure that these docu­            foia/docs/oig-567.pdf.
ments are disposed of in accordance with federal
law.
                                                         Allegations of Violation of Conflict of Interest
The OIG did not find evidence that the individuals       Statute by Former Senior Enforcement Official
who were responsible for preparing the August 27,        (Report No. OIG-564)
2010, response to NARA intentionally made mate­          On June 15, 2011, the OIG opened an investiga­
rially false statements. However, the OIG did find       tion into allegations that a former senior official
that certain senior Enforcement officials, in light      in Enforcement may have played an improper role
of the information available to them, should have        in the decision not to recommend an enforcement
drafted a response to NARA that was more forth­          action against a large international financial institu­
coming. Accordingly, the OIG referred this matter        tion shortly before he left employment at the SEC.
to the Director of Enforcement for oral instruction      Specifically, the OIG investigated whether Enforce­
or counseling of those individuals on the importance     ment previously decided to close an investigation
of providing full and complete responses to official     of the financial institution without recommending
requests from federal agencies such as NARA.             action against it because the senior Enforcement
                                                         official was pursuing an employment opportunity
The OIG also recommended that Enforcement                with the institution. The OIG also investigated
(1) take appropriate steps as necessary, including       whether there was any relationship between or quid
coordination with Enforcement attorneys nation­          pro quo	regarding	Enforcement’s	decision	to	close	
wide, to determine what federal records from             the investigation of the institution and the senior
closed MUIs are retrievable, and ensure that any         official’s	subsequent	employment	at	the	institution.
such federal records are retained in the same man­
ner that investigative records are retained pursuant     In the course of the investigation, the OIG obtained
to the current schedule with NARA; (2) work with         and searched over 200,000 e-mails of 15 current
the	SEC’s	Office	of	Records	Management	Services	         and former SEC employees. The OIG also took the
and NARA to determine which MUI and investiga­           sworn testimony of four current SEC employees and
tive records are legally required to be retained; (3)    interviewed four former SEC employees. In addi­
determine if there are additional federal records        tion, the OIG reviewed documents produced by
that, while not legally required to be retained,         SEC staff that were related to Enforcement investi­
should be retained as a matter of Enforcement            gations and MUIs concerning the financial institu­
program policy to enable Enforcement staff to            tion, as well as Enforcement database records.
understand what investigative work has been done
in closed MUIs and investigations, or for other          On October 19, 2011, the OIG issued its report
policy reasons; and (4) review its guidance, includ­     of investigation in this matter. The investigation
ing guidance related to automatically generated          did not find evidence substantiating the allegation
e-mails, to ensure that it is consistent with Enforce­   that the former senior Enforcement official played
ment’s	federal	record	retention	legal	obligations.	      an	improper	role	in	the	SEC’s	decision	to	close	its	
As of the end of the semiannual reporting period,        investigation of the institution or that there was
management had not yet taken action to fully             a relationship between or quid pro quo regarding
address	the	OIG’s	recommendations.                       the	SEC’s	decision	to	close	the	investigation	and	




32   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
the	former	senior	Enforcement	official’s	eventual	      OIG took the sworn testimony of 24 SEC employ­
employment by the institution. The OIG found            ees who had knowledge of the facts relevant to this
evidence that the former senior Enforcement official    investigation and reviewed 2 testimonies taken in
had recused himself from the investigation upon         previous OIG matters. In addition, the OIG inter­
initiation of his employment discussions with the       viewed 3 current SEC employees.
institution and that he had not made the decision
to close the investigation. Because the OIG found       Specifically,	the	OIG’s	investigation	did	not	substan­
that the former senior Enforcement official had not     tiate allegations of staff misconduct pertaining to
played a role in the decision to close the investiga­   (1) preselection of a senior manager; (2) improper
tion of the institution in 2001, the OIG did not find   use of time and attendance codes; (3) abuse of travel
any appearance of impropriety by the former senior      compensatory time; (4) waste of travel resources;
Enforcement official regarding the decision to close    (5) improper approval of alternate work schedules,
the investigation. The OIG also did not find that       overtime, and holiday pay; (6) disclosure of confi­
the senior Enforcement official played a role in a      dential information; (7) inappropriate comments
previous MUI concerning the institution.                in the workplace; (8) abusive treatment of staff; (9)
                                                        perjury	in	OIG	testimony;	(10)	an	improper	training	
                                                        decision; and (11) unprofessional conduct. How­
Investigation of Alleged Ethics Violations,             ever,	the	OIG’s	report	of	investigation,	issued	on	
Misconduct, and Time and Attendance Abuse               January 24, 2012, found some areas of concern.
at a Regional Office (Report Nos. OIG-562
and PI 10-61)                                           The most significant area of concern found during
The OIG opened an investigation on May 4, 2011,         the investigation was evidence that a senior attor­
incorporating several anonymous complaints that         ney made oral or written comments of an inap­
referenced	a	regional	office’s	staff	members.	The	      propriate or sexual nature over the last 12 years
allegations included claims of general misconduct,      despite being disciplined for his improper behavior.
time	and	attendance	abuse,	mistreatment,	job	prese­     In addition, while investigating the concerns about
lection, waste of travel resources, and disclosure of   the	senior	attorney’s	inappropriate	comments,	the	
confidential information. The OIG also considered       OIG discovered that he had used his government-
allegations regarding travel policy misconduct at the   issued travel card for personal reasons and used his
regional office. After opening the investigation, the   government-issued e-mail account inappropriately.
OIG continued to receive anonymous allegations          Based on these findings, the OIG referred the mat­
pertaining to a wide range of misconduct at the         ter to management for disciplinary action, up to
regional office.                                        and including termination.

In total, the OIG investigated 23 complaints.           Although the OIG did not substantiate allegations
Together, these complaints alleged that 27 different    that a regional office attorney engaged in time
regional office staff members engaged in various        and attendance abuse, the OIG did find that the
forms of misconduct. The OIG conducted a com­           attorney’s	time	and	attendance	records	erroneously	
prehensive and thorough investigation and found         indicated that he was in the office working on a day
that many of the complaints were unsubstantiated        when he was on vacation. Accordingly, the OIG rec­
and others had already been addressed by manage­        ommended	that	the	attorney’s	time	and	attendance	
ment. During the course of the investigation, the       record be amended to reflect appropriate leave.




                                                        OCTOBER 1, 2011–MARCH 31, 2012                  |   33
In	addition,	the	OIG’s	investigation	determined	         Management had not yet taken action with respect
that a regional office manager provided the names        to	the	OIG’s	recommendations	at	the	end	of	this	
of certain securities law firms to a registrant who      reporting period.
ultimately used that information to hire a former
SEC attorney as his counsel in connection with his
testimony in an Enforcement matter. Although fed­        Allegation of Favorable Treatment Provided
eral employees are ethically prohibited from making      by Regional Office to Prominent Law Firm
endorsements while serving in their official capacity,   (Report No. OIG-536)
the SEC Ethics Counsel opined that providing law         The OIG completed its investigation into a com­
firm names was not necessarily akin to an endorse­       plaint that regional office attorneys provided favor­
ment. Therefore, the OIG did not recommend any           able treatment to a prominent law firm with respect
disciplinary or other administrative action against      to	the	firm’s	alleged	role	in	computer	tampering,	
the	manager.	The	OIG’s	investigation	also	substanti­     and the potential cover-up of that tampering, in
ated the allegation that a number of regional office     connection with an ongoing SEC enforcement
staff members socialized with the former SEC attor­      action involving a fraud scheme. The complain­
ney following the Enforcement matter proceeding.         ants alleged that a computer firm recommended
The OIG consulted with the SEC Ethics Counsel,           and hired by the prominent law firm had tampered
who opined that no specific ethics rules had been        with	the	accused	fraudster’s	computers,	which	had	
violated but that there may have been an appear­         been seized by the court-appointed receiver in the
ance that the former SEC attorney received               case. In addition, the complainants claimed that
preferential treatment. However, because several         the regional office staff and officials likely backed
regional office managers had recused themselves          off from investigating or pursuing the law firm for
from the ongoing matter, the OIG did not recom­          any alleged role in the computer tampering and the
mend any further action.                                 alleged cover-up of that tampering because of the
                                                         existing revolving door between the regional office
The	OIG’s	investigation	uncovered	one	incident	in	       and the law firm. The complainants also specifically
which a regional office manager disclosed confiden­      asserted that a now-former regional office official
tial personnel information. In addition, the OIG         had sought employment with this law firm prior
found that several staff members expressed concerns      to his departure from the SEC. The complainants
about	this	manager’s	management	style	and	ability	       further alleged that the regional office staff improp­
to perform his duties. Finally, the OIG found that       erly provided nonpublic information related to this
evidence of one verbal conflict between support staff    matter to the law firm.
members was insufficient to establish misconduct
by the staff members. Accordingly, the OIG referred      During its investigation, the OIG obtained and
these findings to management for action as deemed        searched the e-mails of 10 current and former SEC
appropriate.                                             employees for the relevant time period. In addition,
                                                         the OIG reviewed numerous court pleadings related
Because the OIG received numerous complaints             to	the	SEC’s	enforcement	action	and	the	alleged	
regarding time and attendance matters, the OIG           tampering. The OIG also took the sworn, on-the­
also recommended that the regional office promptly       record testimony of six then-current SEC regional
implement a previous OIG recommendation, made            office staff members. In addition, the OIG inter­
in February 22, 2010, that devices to capture build­     viewed the complainants and the court-appointed
ing entry and exit information be installed in the       receiver.
regional office.




34   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
The OIG issued its report of investigation on              of the prominent law firm. In addition, the OIG did
December	5,	2011.	The	OIG’s	investigation	did	not	         not find evidence that a regional office official had
substantiate the allegation that the regional office       leaked information about the tampering investiga­
officials and staff had backed off from investigat­        tion to the prominent law firm.
ing the law firm after learning which law firm
was involved in the alleged tampering. Rather, the         Overall, the OIG concluded that there was insuf­
evidence showed the regional office was aware of           ficient evidence to substantiate the allegations that
the identity of the law firm involved prior to the first   regional office officials and staff engaged in miscon­
meeting with the receiver about the tampering issue.       duct by failing to investigate the alleged computer
The OIG did find that there had been significant           tampering and cover-up because of preferential
movement (in terms of employment) of attorneys             treatment accorded to the law firm.
between the regional office and the prominent law
firm, but the OIG did not substantiate the allegation
that the regional office backed off from pursuing          Misuse of Government Resources and Official
the prominent law firm for any improper purpose,           Time at Headquarters (Report No. OIG-570)
including currying favor for potential employment          The OIG opened this investigation on Decem­
opportunities in the future. The OIG investigation         ber 14, 2011, after receiving information that an
revealed that the prominent law firm did attempt to        employee was continuing to use SEC resources and
influence the regional office to take certain actions      official time in support of a nonprofit business. The
to rein in the court-appointed receiver, but that          employee	was	the	subject	of	a	previous	OIG	investi­
the regional office staff took none of the requested       gation in which similar misconduct was confirmed.
actions.                                                   The prior investigation concluded that for several
                                                           years the employee had used substantial Commis­
Moreover, the OIG investigation did not substanti­         sion resources and official duty hours to support a
ate the allegation that a now former regional office       nonprofit business. The previous investigation also
official had sought employment from the prominent          found that although the employee had been repeat­
law firm while he was still employed with the SEC.         edly admonished by her supervisors to stop doing
Specifically, the investigation did not find evidence      so, the employee continued to operate the busi­
suggesting that the former official had expressed          ness during official duty hours using government
any interest in working for the prominent law firm,        resources.
or that his actions in the enforcement matter were
designed to assist him in obtaining employment             Accordingly, in the prior investigation, the OIG
at the prominent law firm or at a different law            found that the employee had violated SEC and exec­
firm where he was ultimately employed. The OIG             utive branch policies regarding appropriate use of
investigation also found that the regional office          SEC office equipment and information technology
made	only	minimal	efforts	to	assist	in	the	receiver’s	     resources. On December 17, 2009, the OIG issued
investigation of the alleged computer tampering and        its report of investigation to management, recom­
related cover-up, and that the regional office did         mending	that	the	employee	be	subject	to	disciplinary	
not take certain actions that it had agreed to take or     action, up to and including dismissal from federal
could have taken to assist the tampering investiga­        service. On April 26, 2010, SEC management
tion. However, the OIG did not find sufficient evi­        suspended the employee for 30 calendar days and
dence	to	establish	that	the	regional	office’s	decisions	   informed	the	employee	that	she	could	be	subject	
regarding the level of assistance it should provide to     to removal from federal service if she repeated the
the receiver were related to the alleged involvement       misconduct.




                                                           OCTOBER 1, 2011–MARCH 31, 2012                   |   35
During the current investigation, the OIG con­           signing their timesheets and telling them the hours
ducted a keyword search of over 60,000 of the            they had to work, and that the contractor employ­
employee’s	e-mails	for	an	8-month	period.	Addi­          ees had to notify SEC officials by e-mail whenever
tionally, the OIG reviewed the results of a search       they did not report to work.
performed	by	OIT	of	the	employee’s	SEC	computer	
hard drive using specific search terms related to        During the investigation, the OIG obtained and
her nonprofit business. The OIG also obtained the        searched over 180,000 e-mails of 11 current or for­
employee’s	time	and	attendance	records	for	2011	         mer SEC employees and contractors. The OIG also
and	the	employee’s	SEC	cybersecurity	and	privacy	        took the sworn testimony of 8 current SEC employ­
training certifications for 2010 and 2011. Finally,      ees and interviewed one current SEC employee. In
the OIG contacted the employee multiple times via        addition, the OIG obtained and reviewed docu­
e-mail and telephone to request that she contact the     ments	related	to	the	contract	that	was	the	subject	of	
OIG to schedule her testimony, but the employee          these allegations.
never	responded	to	these	requests.	The	OIG’s	review	
of	the	employee’s	e-mails	and	hard	drive	confirmed	      The OIG investigation found evidence that the SEC
that she had continued to misuse Commission              contract at issue was administered as a personal
resources and had used official duty hours to oper­      services contract, in violation of the FAR. The OIG
ate her nonprofit business.                              found	evidence	that	the	contractor’s	employees	
                                                         were	subject	to	relatively	continuous	supervision	
On January 13, 2012, the OIG issued its report of        and control by SEC employees in almost all aspects
investigation in this matter and recommended that        of their work. Specifically, the OIG found evidence
SEC management discipline the employee, up to            that these contractor employees (1) performed work
and including dismissal from federal service. On         on site at SEC offices; (2) performed their work
March 21, 2012, the SEC entered into a settlement        with tools and equipment furnished by the SEC;
agreement with the employee, pursuant to which           (3) performed services to directly support the
she voluntarily retired from federal service.            integral effort of the assigned functions of the SEC;
                                                         (4) provided the same or extremely similar services
                                                         as those provided contemporaneously by SEC
Allegation of Improper Personal Services                 employees and those that had been provided by
Contract (Report No. OIG-569)                            SEC employees whom the contractor employees
On June 15, 2011, the OIG opened an investigation        essentially replaced; (5) provided general support
into allegations made in an anonymous complaint          services of a long-term duration, as opposed to
that	the	SEC’s	contract	with	a	technology	firm	was	      services	related	to	a	short-term,	discrete	project;	and	
a personal services contract in violation of the FAR.    (6) provided services that reasonably required direct
Specifically, the anonymous complaint alleged that       or indirect government direction or supervision.
SEC officials screened all of the federal contractor
prospective	employees’	resumes,	notified	the	federal	    The	OIG’s	conclusions	were	further	supported	by	
contractor of which candidates they wanted to            evidence that these contractor employees performed
interview, and interviewed all of the federal contrac­   work that was principally assigned and reviewed by
tor employees before they were hired.                    SEC employees, were interviewed and selected by
                                                         SEC employees, worked on schedules set by SEC
The complaint further alleged that SEC officials act­    employees, and sought approval from SEC employ­
ed as supervisors of these contractor employees, and     ees to take leave. The OIG issued its report of inves­
that government officials acted as their employer by     tigation on March 29, 2012, and recommended that




36   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
OFM, in consultation with OGC, request a formal         viduals with knowledge of the facts and circum­
opinion from the Comptroller General of the United      stances surrounding the allegation.
States as to whether the Commission violated the
Antideficiency Act, which prohibits agencies from       In a report of investigation dated November 10,
employing personal services unauthorized by law.        2011, the OIG found no evidence to support the
As	of	the	end	of	this	reporting	period,	the	OIG’s	      allegations that the assessment procured through the
recommendation was pending.                             contract was unnecessary. However, the OIG did
                                                        find that the solicitation was modified twice at the
The OIG investigation also found evidence that SEC      request of the firm that was awarded the contract
employees exhibited an apparent lack of under­          and that the effect of these modifications was to
standing of what constitutes a personal services        lower the requisite qualifications for potential bid­
contract. In addition, the OIG learned that although    ders and to eliminate certain restrictions. Accord­
the	contract	that	was	the	subject	of	the	allegations	   ingly, the OIG referred its findings to management
had ended, some of the contractor employees who         for informational purposes.
worked on that contract might now be performing
the same services at the SEC under other contracts,
giving rise to a concern that current SEC contracts     Alleged Acceptance of Free or Discounted Legal
are also being administered as personal services con­   Services From a Prohibited Source (PI 11-25)
tracts in violation of the FAR. Accordingly, the OIG    On March 14, 2011, the OIG opened a preliminary
Office of Investigations has referred this concern to   inquiry	into	an	anonymous	complainant’s	allega­
the OIG Office of Audits, which plans to conduct        tions that an SEC manager inappropriately accepted
an audit to determine whether improper personal         free or discounted legal services from a law firm
services contracts exist more broadly at the Com­       partner. The complainant alleged that the SEC man­
mission.                                                ager had recommended the partner for appointment
                                                        as a receiver in an SEC enforcement matter less than
                                                        a month prior to the provision of the legal services,
Allegation of Procurement Violations                    and that the partner provided the free or discounted
(Report No. OIG-556)                                    service to the manager in gratitude for the appoint­
During the reporting period, the OIG completed its      ment and with the expectation of obtaining similar
investigation into an anonymous complaint alleging      appointments in the future. The complaint further
that the SEC awarded a contract for an unnecessary      alleged	that	the	SEC	manager’s	acceptance	of	free	
assessment to a firm that the OIG previously found      or discounted services from the law firm partner
had improperly conveyed material benefits to SEC        created a serious appearance of impropriety. As
employees.                                              part of its inquiry, the OIG also looked into the law
                                                        firm	partner’s	appointment	as	receiver	to	determine	
During its investigation, the OIG obtained and          whether there was evidence of impropriety by the
reviewed over 30,000 e-mails of eight current and       SEC manager or anyone else at the SEC.
former SEC employees and contractors. The OIG
also reviewed evidence provided by headquarters         During its preliminary inquiry, the OIG obtained
offices and various witnesses related to the pro­       and searched over one million e-mails and took the
curement of the assessment. The evidence included       sworn testimony of the SEC manager and another
vendor proposals, requisition requests, and vendor      SEC employee. Additionally, the OIG interviewed
evaluation documentation. In addition, the OIG          the SEC Ethics Counsel by telephone.
took sworn, on-the-record testimony of three indi­




                                                        OCTOBER 1, 2011–MARCH 31, 2012                 |   37
On February 17, 2012, the OIG issued its memo­           addition, the OIG interviewed staff from OHR and
randum report in this matter. The OIG found              the	U.S.	Office	of	Personnel	Management	(OPM)	
that the law firm partner had provided free legal        to obtain information about hiring regulations and
services on behalf of the SEC manager and that this      the	Commission’s	hiring	authority.	The	OIG	also	
constituted a gift from a prohibited source under        contacted the SEC Ethics Office during its inquiry
the relevant ethics rules. However, the OIG found        regarding ethical considerations in the hiring process.
insufficient evidence to substantiate the allegations    The OIG took sworn, on-the-record testimony of
that the service was provided in gratitude for the       the	subject.	
receivership appointment and with the expectation
of obtaining similar appointments in the future. The     The OIG identified a number of circumstances sur­
OIG also found no evidence that anything improper        rounding the hiring in question that appear to have
occurred	with	respect	to	the	partner’s	appointment	      violated federal hiring regulations and merit system
as receiver.                                             principles. Specifically, the OIG found that the hiring
                                                         supervisor provided substantial assistance to the
Regarding the acceptance of the free legal services,     applicant during the application process, including
the SEC Ethics Counsel opined that there was suf­        giving advance notice of the posting and advice on
ficient evidence of a personal friendship between the    information	to	include	in	the	candidate’s	application.	
law firm partner and the SEC manager to fall within      In addition, before the relevant vacancy announce­
an exception to the ethics rules and, therefore, there   ment	closed,	the	subject	made	several	remarks	
was no direct violation of those rules. However, the     indicating that the applicant would be selected for
Ethics Counsel acknowledged that the acceptance          the	position.	Further,	the	subject	did	not	interview	
of the free legal services created an appearance of      any other qualified candidates.
impropriety because the law firm partner was a pro­
hibited source. Accordingly, the OIG did not find a      The OIG issued a memorandum report to manage­
basis for recommending disciplinary action against       ment on January 12, 2012, describing the results of
the manager. However, the OIG recommended that           the inquiry and recommending that OHR provide
the Ethics Office counsel the manager on how to          training to managers on federal hiring regulations
properly address appearance issues in the future.        and determine whether any corrective action should
The Ethics Office counseled the manager prior to         be taken with respect to those candidates that
the end of the reporting period.                         applied but were not considered for the position. At
                                                         the end of the reporting period, SEC management
                                                         action	on	the	OIG’s	recommendations	was	pending.	
Prohibited Personnel Practices in Hiring of              The OIG also referred the results of this inquiry to
Headquarters Employee (PI 10-07)                         the U.S. Office of Special Counsel, which has the
The OIG conducted an inquiry into an anony­              authority to investigate and, where appropriate,
mous complaint alleging that an SEC headquarters         prosecute claims of prohibited personnel practices.
supervisor violated federal hiring regulations when
the supervisor hired the relative of a former SEC
manager. During its inquiry, the OIG reviewed hir­       Prohibited Personnel Practices in
ing documentation, including the relevant vacancy        Hiring of Senior Officer (PI 10-43)
announcement and candidate list. The OIG also            The OIG conducted an inquiry into an anonymous
obtained and reviewed e-mails of the supervisor who      complaint alleging that an SEC senior officer in
was	the	subject	of	the	investigation,	the	subject’s	     headquarters was preselected for his or her position
supervisor,	and	the	employee	hired	by	the	subject.	In	   in	violation	of	federal	law	and	the	SEC’s	internal	




38   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
merit promotion plan. The complaint further              SEC management instituted new standard operating
alleged that the vacancy announcement for this           procedures and scheduled the first audit under the
position was specifically tailored for the desired       new procedures. At the end of the reporting period,
candidate and that the candidate was selected            SEC	management’s	response	to	the	other	recom­
without being interviewed. In conducting its inquiry,    mendations was pending. The OIG also referred the
the OIG reviewed hiring documentation, including         results of this inquiry to the U.S. Office of Special
the relevant vacancy announcement and candidate          Counsel, which has the authority to investigate and,
list. The OIG also obtained and reviewed e-mails of      where appropriate, prosecute claims of prohibited
the selecting official and an OHR staff member who       personnel practices.
assisted in preparing the relevant posting. In addi­
tion,	the	OIG	interviewed	staff	from	OPM	to	obtain	
information about hiring regulations. The OIG also       Violation of the Antideficiency Act
took sworn, on-the-record testimony of the selecting     Resulting from the Hiring of a Non-U.S.
official and an OHR staff member familiar with the       Citizen (PI 11-45)
SEC’s	merit	promotion	plan.	                             The OIG opened this inquiry in July 2011 after
                                                         receiving information from a headquarters
The	OIG’s	inquiry	identified	a	number	of	circum­         employee that an Antideficiency Act violation had
stances surrounding the hiring of the senior offi­       occurred when an SEC division hired a non-U.S.
cer that appear to substantiate the complaint of         citizen. The Office of General Counsel also asked
improper preselection. Specifically, the OIG found       the OIG to review the circumstances surrounding
that the decision to hire the senior officer was made    this hiring and to provide information to assist
before the vacancy announcement was closed and,          in determining the party who should be named
therefore, before the list of eligible candidates had    responsible for the Antideficiency Act violation.
been generated. The hiring of the senior officer         In conducting its inquiry, the OIG obtained and
was announced on the same day that the list of           reviewed more than 800,000 e-mails of various
eligible candidates was generated and, as a result,      SEC staff members from the SEC division that
candidates other than the senior officer were not        hired the non-U.S. citizen, as well as OHR staff
given consideration for the position. The OIG also       familiar with the hiring. The OIG also took sworn,
found that the selecting official did not contact or     on-the-record testimony of six employees who were
interview any candidates. However, the OIG found         involved in hiring the non-U.S. citizen. In addition,
no specific evidence that the vacancy announcement       the	OIG	reviewed	this	employee’s	personnel	file	and	
was tailored to benefit the senior officer.              documents	related	to	the	employee’s	selection.	

The OIG issued a memorandum report to manage­            The	OIG’s	inquiry	found	that	the	SEC	had	unlaw­
ment on December 7, 2011, describing the results of      fully hired a non-U.S. citizen in violation of the
the inquiry and recommending that management             Antideficiency Act, which prohibits the use of
(1) provide training to staff to ensure hiring is        government funds exceeding an amount available
executed in accordance with the merit system princi­     in an appropriation. A longstanding exemption in
ples, (2) finalize and issue a revised merit promotion   appropriations acts that allowed the hiring of non-
plan	and	post	it	on	the	SEC’s	intranet,	(3)	institute	   U.S.	citizens	from	certain	“allied	countries”	was	
procedures	to	ensure	the	merit	promotion	plan’s	         removed by the 2010 Appropriations Act, which
documentation requirements are followed, and             was enacted in December 2009. The OIG found
(4) consider whether corrective action should be         that this change had not been adequately commu­
taken.	In	response	to	the	OIG’s	recommendations,	        nicated to SEC staff involved in the hiring process.




                                                         OCTOBER 1, 2011–MARCH 31, 2012                  |   39
The	OIG’s	inquiry	also	found	that	SEC	staff	were	       of two securities accounts that the spouse had kept
provided inaccurate guidance regarding the permis­      secret from the SEC employee for several years.
sibility of hiring non-U.S. citizens. Although the      According to the SEC Ethics Counsel, this disclosure
non-U.S.	citizen’s	employment	was	terminated	after	     had arisen because the SEC employee was required
SEC staff became aware of the violation, the Com­       to confirm all of his or her reportable holdings in
mission employed this person for approximately 10       the	SEC’s	internal	reporting	system.	
months, in violation of the Antideficiency Act.
                                                        The OIG obtained and searched of over 600,000
The OIG issued a memorandum report to manage­           e-mails and took the sworn testimony of the SEC
ment on October 25, 2011, describing the results        employee. Additionally, the OIG interviewed both
of the inquiry and recommending that management         the	SEC’s	current	and	former	Ethics	Counsels.	The	
provide guidance on hiring limitations to all staff     OIG also reviewed materials necessary to determine
involved in the hiring process, institute proce­        whether the SEC employee violated any SEC rules,
dures to ensure that all relevant staff are notified    regulations, and policies, or federal laws, includ­
of changes in hiring authority in a timely manner,      ing several hundred pages of account statements
and finalize and issue a policy regarding the hir­      and related brokerage information; internal SEC
ing	of	non-U.S.	citizens.	In	response	to	the	OIG’s	     investigative and securities holdings databases; and
recommendations, SEC management designated              information provided by the Ethics Office. Finally,
staff responsible for regularly reporting on changes    the OIG sought the voluntary testimony of the
to hiring regulations. At the end of the reporting      employee’s	spouse,	who	declined	to	testify	during	
period,	SEC	management’s	response	to	the	OIG’s	         the	OIG’s	inquiry.	
remaining recommendations was still pending. The
OIG also referred the results of this inquiry to the    On March 15, 2012, the OIG issued its memo­
Office of the General Counsel for use in determin­      randum report in this matter. The OIG found that
ing the officer(s) or employee(s) responsible for the   the	SEC	employee	failed	to	timely	file	the	spouse’s	
Antideficiency Act violation.                           securities holdings in certain accounts as required
                                                        by SEC regulations. However, the OIG also found
                                                        that once the SEC employee became aware that
Possible Violations of Ethical Standards and            the spouse had unreported managed accounts,
Conflict of Interest Statute (PI 11-26)                 secretly	kept	without	the	employee’s	knowledge,	
On March 28, 2011, after being contacted by the         the	employee	contacted	the	SEC’s	Ethics	Counsel	at	
SEC Ethics Counsel, the OIG opened a preliminary        that time and arranged for him to advise the spouse
inquiry into allegations that an SEC employee failed    directly on the best course of action to be taken.
to	timely	report	a	spouse’s	securities	holdings,	in	    The former Ethics Counsel told the OIG under
possible	violation	of	Rule	4401.102	of	the	SEC’s	       oath that he advised both parties that the employee
Supplemental Standards of Ethical Conduct. The          should not change any reporting at that time due to
SEC Ethics Counsel also expressed concerns that the     anticipated changes in the ethics rules, and the OIG
SEC employee might have investigated one or more        found that they reasonably relied on his advice. The
companies in which the employee had a financial         OIG found further that the employee took affirma­
interest	due	to	the	spouse’s	securities	holdings,	      tive steps to report and to remedy the situation by
possibly in violation of a federal conflict of inter­   having the spouse meet more recently with the cur­
est statute. The OIG was further informed that the      rent Ethics Counsel.
employee’s	spouse	had	acknowledged	the	existence	




40   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
In addition, the OIG did not find that the SEC           contract shortly after its award. The OIG also did
employee’s	conduct	violated	a	federal	conflict-of-       not find any evidence that the SEC official refer­
interest statute. Finally, the OIG obtained evidence     enced in the complaint had any inappropriate intent
that the SEC employee had a consistent history of        to award the contract to a friend or to increase the
conscientiously seeking ethics advice and testified      size of the contract after its award.
credibly before the OIG about the events that trans­
pired. Accordingly, the OIG did not find a basis for
recommending disciplinary action in this matter and      Alleged Failure to Pursue Insider Trading
referred its report to management for informational      Investigation at Headquarters (PI 11-10)
purposes.                                                On December 15, 2010, the OIG opened an inquiry
                                                         after being contacted by the staff of a U.S. Senator
                                                         regarding a press report of an FBI investigation of
Alleged Improper Award of Sole-Source                    alleged insider trading by third-party consultants for
Contract (PI 11-39)                                      expert network firms, i.e., Wall Street matchmakers
The OIG conducted an inquiry into an anonymous           that connect large investors with outside experts.
complaint regarding a contract that the SEC entered      The	Senator’s	staff	requested	that	the	OIG	inves­
into in May 2011. The complaint alleged that the         tigate why no SEC enforcement action had been
contract award was inappropriate because it was          brought in response to a 2005 referral made by the
a	sole-source	award	to	a	friend	of	an	SEC	official’s	    Senator to the SEC regarding allegations of insider
wife,	made	without	the	appropriate	justification	        trading by expert network firms outlined in a 2005
required under the applicable regulations. The com­      newspaper	article.	The	Senator’s	staff	also	asked	
plaint further alleged that the SEC official requested   whether the 2010 FBI investigation could have been
that the size of the contract be doubled after it was    initiated several years earlier if the SEC had pursued
awarded.                                                 the	Senator’s	2005	referral.	

The OIG obtained and reviewed a copy of the              The OIG conducted an inquiry into this matter and
contract file from the Office of Acquisitions and        issued its memorandum report on March 15, 2012.
obtained and reviewed e-mails of four current SEC        The OIG inquiry found that the SEC promptly initi­
employees with knowledge of the relevant facts. The      ated its investigation into the allegations outlined in
OIG also interviewed four current and former SEC         a 2005 newspaper article that the Senator had pro­
personnel and took sworn testimony of the SEC            vided to the SEC. Specifically, the inquiry revealed
official referenced in the anonymous complaint.          that the SEC had opened a matter under inquiry into
                                                         the allegations the day after the Senator had referred
On March 15, 2012, the OIG issued its memo­              the article to the SEC.
randum report. The OIG found that the evidence
did	not	substantiate	the	complaint’s	allegations	        The OIG inquiry further found that the SEC made
regarding the contract award because the contract        efforts	to	keep	the	Senator’s	staff	apprised	of	the	
appeared to comply with the applicable provisions        ongoing SEC investigation. The OIG inquiry
of the FAR governing the award of sole-source con­       revealed that the SEC conducted an extensive investi­
tracts to contractors in the Small Business Adminis­     gation into the allegations raised in 2005, as well as
tration’s	8(a)	Program	for	small	and	disadvantaged	      a broader analysis of the links between the pharma­
businesses. Further, the OIG found that the evidence     ceutical industry and Wall Street research analysts
did	not	substantiate	the	complaint’s	claims	regard­      from August 2005 through 2006. The OIG inquiry
ing the alleged attempt to double the size of the        established that the SEC made many document




                                                         OCTOBER 1, 2011–MARCH 31, 2012                   |   41
requests and conducted interviews. At the outset of       duty to impartially perform his procurement duties.
the investigation, the SEC sent document requests to      As a part of its inquiry, the OIG also examined
five brokerage firms identified by the 2005 news­         whether the branch chief improperly induced a
paper article as having received information from         social invitation from this contractor and whether
a clinical researcher. In addition, the SEC requested     the branch chief accepted a gift from the contractor
documents and information from the two largest            that was prohibited, either because the contractor
consulting matchmakers. Moreover, the SEC con­            was	the	branch	chief’s	subordinate	or	was	a	pro­
tacted nine pharmaceutical companies with drugs           hibited source as defined by applicable ethics rules.
involved in clinical trials that the 2005 newspaper       Further, the OIG considered whether the branch
article had identified as being of significant inter­     chief’s	conduct	created	an	improper	appearance.	
est to Wall Street, interviewed individuals at each       Finally,	the	OIG	reviewed	the	complaint’s	claim	that	
company knowledgeable about the clinical trials,          the branch chief improperly disclosed nonpublic
and conducted significant investigative work into         information about future SEC contracts to employ­
how information about these clinical trials reached       ees of companies that were bidding for or had exist­
the marketplace.                                          ing SEC contracts.

The OIG found that the SEC received massive               The OIG took the sworn, on-the-record testimony
amounts of data, which the staff reviewed and             of four SEC employees or contractors. The OIG
analyzed.	While	the	SEC’s	investigation	uncovered	        also consulted with an Assistant Ethics Counsel, the
communications between clinical researchers and           Ethics Counsel, and a contracting officer. Addition­
Wall Street professionals, none of the communica­         ally, the OIG obtained from the contracting officer a
tions identified by the investigation appear to have      report with detailed information about the relevant
conveyed information that was both material and           contracts, the winning quotes for one SEC solici­
nonpublic.	In	addition,	the	SEC’s	investigation	did	      tation, and the notifications sent to unsuccessful
not uncover any potential illegal trading activity.       bidders for this solicitation. The OIG also obtained
Despite its extensive investigation into these matters,   and searched approximately 77,000 e-mails during
the SEC did not find evidence supporting a violation      its inquiry.
of the federal securities laws.
                                                          On March 27, 2012, the OIG issued its memoran­
Finally, the OIG inquiry revealed that the 2010 FBI       dum report in this matter. The OIG did not find
investigation into alleged insider trading by third-      sufficient evidence to substantiate the allegation
party consultants for expert network firms, which         that	the	branch	chief’s	limited	socialization	with	
was	referenced	by	the	Senator’s	staff,	did	not	involve	   the	contractor	negatively	affected	the	branch	chief’s	
the	subject	matter	of	the	SEC’s	2005	investigation.       impartial performance of official contract procure­
                                                          ment duties. The OIG did find, however, that the
                                                          branch	chief’s	actions	in	inducing	the	contractor	to	
Alleged Conflict of Interest, Improper Induce­            give a social invitation led to the improper appear­
ment and Acceptance of a Gift, and Other                  ance that the branch chief used his SEC position to
Ethics Violations (PI 11-53)                              obtain the invitation. The OIG also concluded that
The OIG opened an inquiry after receiving an anon­        the branch chief received a de minimis gift from the
ymous	complaint	through	the	OIG’s	SEC	Employee	           contractor, who was a prohibited source under the
Suggestion	Program	alleging	that	a	branch	chief	          gift rules. Nonetheless, the OIG found that cor­
engaged in social activities with a contractor, creat­    rective action taken by the branch chief and SEC
ing a conflict of interest that impeded his ethical       management was sufficient to remedy any violations




42   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
of the gift and appearance rules. Finally, the OIG       March 31, 2010, the OIG uncovered evidence that
found no evidence to substantiate the allegation that    the former official, who played a significant role in
the branch chief improperly disclosed nonpublic          multiple decisions over several years that quashed
information to vendors about future SEC contracts.       investigations of Stanford, sought to represent
                                                         Stanford on three separate occasions after he left the
Accordingly, the OIG did not find a basis for recom­     SEC to enter private practice. The evidence obtained
mending disciplinary action against the branch           by the OIG also showed that the former SEC official
chief, but did recommend that the Ethics Office          actually represented Stanford for a brief period in
provide counseling to the branch chief on how to         2006 and communicated with an SEC attorney
properly deal with appearance and gift acceptance        about the matter before the SEC Ethics Office
issues in the future. The SEC Ethics Office provided     informed the former official that it was improper for
counseling to the branch chief in accordance with        him to represent Stanford. Subsequent to the issu­
the	OIG’s	recommendation	prior	to	the	end	of	the	        ance of its report of investigation, the OIG provided
reporting period.                                        its full cooperation to DOJ in support of the efforts
                                                         that resulted in this settlement.

CIVIL SETTLEMENT AND GUILTY PLEA                         The full press release discussing the settlement can
ARISING OUT OF OIG INVESTIGATIONS                        be found at http://www.sec-oig.gov/Reports/Other/
                                                         SEC_OIG_PressRelease_1_13.pdf.
Settlement With Department of Justice for
Violation of Federal Conflict of Interest Statute
On January 13, 2012, the United States Attorney          Guilty Plea to Felony Fraud
for the Eastern District of Texas announced a civil      On March 24, 2012, a former SEC employee pled
settlement reached with the former SEC official in       guilty in District of Columbia Superior Court to
charge	of	the	Enforcement	program	at	the	SEC’s	          one count of first degree felony fraud. The guilty
Fort Worth Regional Office from 1998 through             plea arose out of an investigation that was conducted
2005. The agreement alleged that the former              jointly	by	the	SEC	OIG,	the	District	of	Columbia	OIG,	
official violated 18 U.S.C. § 207, the federal statute   and	the	U.S.	Office	of	Personnel	Management	OIG.	
prohibiting a former government official from
making a communication or appearance before              The	evidence	obtained	during	the	joint	investiga­
a federal agency concerning a particular matter          tion showed that throughout a five-year period the
in which the official participated personally and        former employee had repeatedly submitted false
substantially while serving the government. As part      income information to various District of Columbia
of this agreement, the former official agreed to pay     agencies in order to obtain benefits to which the
a $50,000 civil fine, the maximum fine for violating     former employee was not entitled. As a consequence
this statute.                                            of these false statements, the former employee
                                                         fraudulently obtained benefits worth approximately
The settlement with the former official arose from       $30,000 from District of Columbia benefit pro­
facts uncovered during an OIG investigation into         grams over this five-year period. The investigation
the	SEC’s	failure	to	bring	an	enforcement	action	        also revealed that the employee had submitted
against Robert Allen Stanford or his companies           numerous false claims to the federal flexible spend­
(Stanford) for several years after receipt of numer­     ing account program. Sentencing in the matter was
ous	complaints	that	Stanford	was	operating	a	Ponzi	      scheduled for April 2012.
scheme. In the report of investigation issued on




                                                         OCTOBER 1, 2011–MARCH 31, 2012                  |   43
PENDING INVESTIGATIONS                                favoritism in hiring and retaliation, conflict of inter­
As of March 31, 2012, the OIG had ten pending         est, misuse of government resources to falsify docu­
investigations. These included investigations into    ments, waste and mismanagement, and computer
allegations of privacy violations related to an SEC   security violations. The OIG also had 58 pending
contract, assault and building security violations,   inquiries at the end of the reporting period.




44   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Review of Legislation and Regulations



D
         uring the semiannual reporting period, the          20, 2011) (to be codified at 17 C.F.R. parts 229
         OIG reviewed legislation and proposed               and 230)
         and final rules and regulations relating to    •	   Reporting	of	Security-Based	Swap	Transaction	
the programs and operations of the SEC, pursuant             Data, 75 Fed. Reg. 64643 (interim final tempo­
to section 4(a)(2) of the Inspector General Act, as          rary rule, October 13, 2010) (to be codified at
amended.                                                     17 C.F.R. part 240)
                                                        •	   Regulation	SBSR—Reporting	and	Dissemina­
In particular, the OIG conducted a follow-up                 tion of Security-Based Swap Information, 75
review of the cost-benefit analyses performed by             Fed. Reg. 75208 (proposed November 19,
the SEC in connection with rulemaking initiatives            2010) (to be codified at 17 C.F.R. parts 240
undertaken pursuant to the Dodd-Frank Wall Street            and 242)
Reform	and	Consumer	Protection	Act	(Dodd-
Frank Act) and issued a report on the results of        During the follow-up review, the OIG also exam­
this follow-up review on January 27, 2011 (Report       ined, as appropriate, the following six Dodd-Frank
No.	499).	Specifically,	the	OIG’s	follow-up	review	     Act rulemakings, which it had initially assessed dur­
focused on the cost-benefit analyses prepared by        ing the prior semiannual reporting period:
the SEC for the following five Dodd-Frank Act
regulatory initiatives:                                 •	   Credit	Risk	Retention,	76	Fed.	Reg.	24090	
                                                             (proposed March 31, 2011) (to be codified at
•	   Shareholder	Approval	of	Executive	Compensa­             17 C.F.R. part 246)
     tion	and	Golden	Parachute	Compensation,	76	        •	   Clearing	Agency	Standards	for	Operation	and	
     Fed. Reg. 6010 (January 25, 2011) (to be codi­          Governance, 76 Fed. Reg. 14472 (proposed
     fied at 17 C.F.R. parts 229, 240, and 249)              March 3, 2011) (to be codified at 17 C.F.R.
•	   Disclosure	for	Asset-Backed	Securities	Required	        part 240)
     by Section 943 of the Dodd-Frank Wall Street       •	   Registration	and	Regulation	of	Security-Based	
     Reform	and	Consumer	Protection	Act,	76	Fed.	            Swap Execution Facilities, 76 Fed. Reg. 10948
     Reg. 4489 (January 20, 2011) (to be codified at         (proposed February 2, 2011) (to be codified at
     17 C.F.R. parts 229, 232, 240, and 249)                 17 C.F.R. parts 240, 242 and 249)
•	   Issuer	Review	of	Assets	in	Offerings	of	Asset-     •	   Reporting	by	Investment	Advisers	to	Private	
     Backed Securities, 76 Fed. Reg. 4231 (January           Funds	and	Certain	Commodity	Pool	Operators	




                                                        OCTOBER 1, 2011–MARCH 31, 2012                  |   45
     and Commodity Trading Advisors on Form              that	the	SEC’s	administrative	regulation	on	the	use	
     PF,	76	Fed.	Reg.	8068	(proposed	January	26,	        and	preparation	of	justifications	and	approvals,	
     2011) (to be codified at 17 C.F.R. parts 275        SECR 10-21, “Restricting Competition for SEC
     and 279)                                            Acquisitions,”	had	been	removed	from	the	SEC’s	
•	   Registration	of	Municipal	Advisors,	76	Fed.	        intranet site and was under review. In its report, the
     Reg. 824 (proposed December 20, 2010) (to           OIG	recommended	that	the	SEC’s	Office	of	Acquisi­
     be codified at 17 C.F.R. parts 240 and 249)         tions publish comprehensive policies and procedures
•	   Conflict	Minerals,	75	Fed.	Reg.	80948	(pro­         governing	the	justification	and	approval	process	at	
     posed December 15, 2010) (to be codified at         the Commission.
     17 C.F.R. parts 229 and 249)
                                                         Similarly,	during	the	OIG’s	audit	of	the	SEC’s	
To assess the adequacy of the cost-benefit or eco­       controls over government-furnished equipment
nomic analyses performed by the SEC in connection        and contractor-acquired property (Report No. 503,
with the aforementioned rulemakings, the OIG             issued March 28, 2012), the OIG reviewed the
reviewed and analyzed the relevant requirements of       requirements	of	FAR	Part	45	concerning	govern­
the	Paperwork	Reduction	Act,	44	U.S.C.	§	3501	et	        ment property. The OIG also examined during
seq.; the Regulatory Flexibility Act, 5 U.S.C. § 601     this	audit	the	SEC’s	administrative	regulation	on	
et seq.; the National Securities Market Improvement      the	agency’s	property	management	program,	SECR	
Act of 1996 (which amended the Securities Act            9-2, and found that it did not address government-
of 1933, the Securities Exchange Act of 1934, the        furnished property other than by noting that
Investment Advisers Act of 1940, and the Invest­         government-furnished property used by a contrac­
ment Company Act of 1940); Executive Order               tor off-site was governed by the FAR. In addition,
12866,	Regulatory	Planning	and	Review,	58	Fed.	          the OIG reviewed SECR 9-3 regarding reports of
Reg. 51735, (September 30, 1993); Executive Order        survey for SEC property and found that it did not
13563, Improving Regulation and Regulatory               discuss which specific SEC property was desig­
Review, 76 Fed. Reg. 3821 (January 18, 2011); and        nated as government-furnished property. The OIG
Office of Management and Budget Circular A-4,            recommended that the Office of Administrative
Regulatory Analysis (September 17, 2003).                Services,	in	conjunction	with	the	Office	of	Informa­
                                                         tion Technology, revise both SECR 9-2 and SECR
The OIG also reviewed statutes, rules, and regula­       9-3 to clearly define what property is designated as
tions, and their impact on Commission programs           government-furnished property and to identify the
and operations, within the context of other reviews,     particular circumstances needed to meet the require­
audits, and investigations conducted during the          ments	of	FAR	Part	45.		
reporting	period.	For	example,	in	the	OIG’s	audit	of	
the	SEC’s	use	of	justifications	and	approvals	in	sole-   During an investigation completed during the
source contracting (Report No. 507, issued March         reporting period into an allegation of an improper
28, 2012), the OIG reviewed and analyzed Federal         personal services contract (Report No. OIG-569,
Acquisition Regulation (FAR) Subpart 6.3, which          issued March 29, 2012), the OIG reviewed and ana­
prescribes the policies and procedures that must be      lyzed the FAR provision concerning personal service
applied when contracts are not awarded under full        contracts, 48 C.F.R. § 37.104, as well as the Anti-
and open competition. During its audit, the OIG          deficiency Act prohibition on employing personal
also	reviewed	the	SEC’s	internal	policies	and	pro­       services, 31 U.S.C. § 1342. In another investiga­
cedures	pertaining	to	justifications	and	approvals	      tion completed during the reporting period into an
for other than full and open competition and found       allegation involving the destruction of investigative




46   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
records by the Division of Enforcement (Report           Finally, in connection with the preparation of the
No. OIG-567, issued October 5, 2011), the OIG            Inspector	General’s	report	for	fiscal	year	2011	on	
reviewed and analyzed the requirements of various        the	SEC’s	compliance	with	the	Improper	Payments	
pertinent statutes and regulations. In particular, the   Elimination	and	Recovery	Act	of	2010	(IPERA),	
OIG examined the regulations promulgated by the          Public	Law	111-204,	the	OIG	reviewed	and	analyzed	
National Archives and Records Administration con­        the	requirements	of	IPERA.		The	review	focused	
cerning the unlawful or accidental removal, defac­       on	the	requirement	in	section	3	of	IPERA	that	the	
ing, alteration, or destruction of federal government    inspector general of each agency prepare an annual
records.                                                 report	on	the	agency’s	compliance	with	the	act.




                                                         OCTOBER 1, 2011–MARCH 31, 2012                |   47
management decisions



 STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS
 management decisions have been made on all audit reports issued before the beginning of this
 reporting period.



 REVISED MANAGEMENT DECISIONS
 no management decisions were revised during the period.



 AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS
 the office of inspector general agrees with all significant management decisions regarding audit
 recommendations.



 INSTANCES WHERE INFORMATION WAS REFUSED
 during this reporting period, there were no instances where information was refused.




48   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
tables



Table 1. List of Reports: Audits and Evaluations

  audit/evaluation                                    title                                  date issued
    number
       499             follow-up review of cost-benefit analyses in selected
                       sec dodd-frank act rulemakings                                          1/27/12
       500             assessment of sec’s system and network logs                             3/16/12
       501             2011 annual fisma executive summary report                              2/02/12
       503             sec’s controls over government furnished equipment and
                       contractor acquired property                                            3/28/12
       507             sec’s use of Justifications and approvals in sole-source
                       contracting                                                             3/28/12




Table 2. Reports Issued with Costs Questioned or Funds Put to Better Use
(Including Disallowed Costs)
                                                                            number of
                                                                             reports           value
a. reports issued prior to this period for which no management
   decision had been made on any issue at the commencement
   of the reporting period                                                        4        $266,773.24
    for which some decisions had been made on some issues at the
    commencement of the reporting period                                          1     $556,811,589.00
b. reports issued during this period                                              0                $0.00
                                          total of categories a and b             5     $557,078,362.24

c. for which final management decisions were made during this period              5     $557,078,362.24
d. for which no management decisions were made during this period                 0                $0.00
e. for which management decisions were made on some issues
   during this period                                                             0                $0.00
                                          total of categories c, d, and e         5     $557,078,362.24




                                                        OCTOBER 1, 2011–MARCH 31, 2012                 |   49
Table 3. Reports with Recommendations on which Corrective Action has not been Completed
recommendations open 180 days or more

       report number         issue date                 summary of recommendations
          and title
439—student loan program    3/27/2008     in consultation with the national treasury employees
                                          union, develop a detailed distribution plan.
460—management and          3/26/2010     promptly identify all iaas that have expired and have not
oversight of interagency                  been closed, and deobligate any funds that remain on the
acquisition agreements                    expired agreements.
(iaas) at the sec
                                          take action to close the iaas identified for which the per­
                                          formance period expired and deobligate the $6.9 million
                                          in unused funds that remain on the iaas, in accordance
                                          with the appropriate close-out procedures.
474—assessment of the      3/29/2010      develop a communication plan to address outreach to
sec’s bounty program                      both the public and sec personnel regarding the sec
                                          bounty program, which includes efforts to make informa­
                                          tion available on the sec’s intranet, enhance informa­
                                          tion available on the sec’s public website, and provide
                                          training to employees who are most likely to deal with
                                          whistleblower cases.
                                          examine ways in which the commission can increase
                                          communications with whistleblowers by notifying them
                                          of the status of their bounty requests without releasing
                                          nonpublic or confidential information during the course of
                                          an investigation or examination.
                                          require that a bounty file (hard copy or electronic) be cre­
                                          ated for each bounty application, which should contain at
                                          a minimum the bounty application, any correspondence
                                          with the whistleblower, documentation of how the whistle­
                                          blower’s information was utilized, and documentation
                                          regarding significant decisions made with regard to the
                                          whistleblower’s complaint.
                                          incorporate best practices from the department of Justice
                                          (doJ) and the internal revenue service (irs) into the
                                          sec bounty program with respect to bounty applica­
                                          tions, analysis of whistleblower information, tracking of
                                          whistleblower complaints, recordkeeping practices, and
                                          continual assessment of the whistleblower program.
                                          set a timeframe to finalize new policies and procedures
                                          for the sec bounty program that incorporate the best
                                          practices from doJ and irs, as well as any legislative
                                          changes to the program.




50   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

      report number            issue date                  summary of recommendations
         and title
480—review of the sec’s       9/27/2010     update form 13f to a more structured format, such as
section 13(f) reporting                     extensible markup language (xml), to make it easier
requirements                                for users and researchers to extract and analyze section
                                            13(f) data.
481—the sec’s implemen­       3/31/2011     develop policies and procedures for determining the
tation of and compliance                    eligibility of contractors requiring temporary access to the
with homeland security                      sec’s facilities and information systems.
presidential directive 12
(hspd-12)
                                            promptly deploy appropriate technology (e.g., laptops
                                            with internal card readers, keyboards with card readers,
                                            or external card readers) to employees and contractors
                                            who do not have card readers.
482—oversight of and          6/29/2011     develop processes, including written policies and
compliance with conditions                  procedures, regarding reviewing for compliance with
and representations related                 conditions and representations in exemptive orders and
to exemptive orders and                     no-action letters issued to regulated entities on a risk basis.
no-action letters
                                            develop and implement processes to consolidate, track,
                                            and analyze information regarding exemptive orders and
                                            no-action letters issued to regulated entities, and document
                                            these processes in written policies and procedures.
                                            in plans for implementing section 965 of the dodd-frank
                                            wall street reform and consumer protection act, develop
                                            procedures to coordinate examinations with those
                                            conducted by the office of compliance inspections and
                                            examinations and, as appropriate, include provisions for
                                            reviewing for compliance with the conditions in exemptive
                                            orders and representations made in no-action letters on a
                                            risk basis.
                                            in connection with monitoring efforts, include compliance
                                            with the conditions and representations in significant
                                            exemptive orders and/or no-action letters issued to regu­
                                            lated entities as risk considerations.
                                            in connection with compliance efforts, include compli­
                                            ance with the conditions and representations in significant
                                            exemptive orders and/or no-action letters issued to regu­
                                            lated entities as risk considerations.




                                                    OCTOBER 1, 2011–MARCH 31, 2012                     |   51
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

       report number         issue date                 summary of recommendations
          and title
485—assessment of the       9/29/2010     evaluate risk assessment processes for scoring risk to ensure
sec’s privacy program                     that the office of information technology adequately weighs
                                          all appropriate factors, including the identification of risk
                                          levels by vendors.
                                          implement an agency-wide policy regarding shared folder
                                          structure and access rights, ensuring that only the employ­
                                          ees involved with a particular case have access to that
                                          data. if an employee backs up additional information to
                                          the shared resources, only the employee and his or her
                                          supervisor should have access.
                                          ensure personal storage tab (pst) files are saved to a
                                          protected folder.
                                          provide commission staff training on handling, disposal,
                                          and storage of portable media storage devices.
489—2010 annual fisma       3/3/2011      complete a logical access integration of the hspd-12 card
executive summary report                  no later than december 2011, as reported to the office of
                                          management and budget on december 31, 2010.
491—review of alternative   9/28/2011     take necessary actions to ensure that employees do not
work arrangements,                        work unauthorized alternative work schedules, including
overtime compensation,                    required revisions to the collective bargaining agreement
and coop-related                          and steps to ensure that all commission managers and
activities at the sec                     staff are fully informed about which alternative schedules
                                          are authorized.
                                          provide comprehensive training to all employees and man­
                                          agers on all available alternative work schedule programs.
                                          this training should be provided to all new employees
                                          during employee orientation and to all employees and
                                          managers whenever significant changes to policy occur,
                                          such as upon completion of the human capital directive
                                          or adoption of a new collective bargaining agreement.
                                          make up-to-date information on alternative work sched­
                                          ules and policy available to all employees on the sec
                                          intranet site and periodically notify employees of its avail­
                                          ability and location.
                                          in developing the new human capital directive, work
                                          with the national treasury employees union to determine
                                          whether additional alternative work schedules, such as the
                                          gliding, variable day, variable week, three-day workweek,
                                          and maxiflex options described in the office of personnel
                                          management handbook on alternative work schedules,
                                          should be adopted as options for sec employees.



52   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

      report number          issue date                 summary of recommendations
         and title
                                          include in the new human capital directive clear, up-to­
                                          date information on the laws, policies, guidelines, and
                                          procedures related to credit hours, compensatory time off,
                                          payment for overtime worked, and voluntary and uncom­
                                          pensated services.
                                          negotiate revisions to the language in the collective
                                          bargaining agreement between the commission and the
                                          national treasury employees union with respect to the
                                          use of credit hours by employees working conforming
                                          schedules, ensuring that the revised language conforms
                                          with applicable law.
                                          institute appropriate controls to ensure that senior officers
                                          do not receive compensatory time off.
                                          consult with the office of the general counsel and the
                                          office of personnel management to determine whether
                                          the sec should adopt an official policy that addresses
                                          whether senior officers are permitted to earn credit hours.
                                          provide comprehensive telework training sessions to sec
                                          employees that address, among other things, telework
                                          tools; policies and procedures for discontinuing telework;
                                          what happens when an employee is promoted, reas­
                                          signed, or detailed; duty station policy; employee avail­
                                          ability during telework; employee personal computer
                                          usage; mandatory telework-related forms; office supplies
                                          and equipment; and protection of government records.
                                          provide comprehensive telework training sessions to sec
                                          managers that address, among other things, telework tools,
                                          policies and procedures related to managers’ approval
                                          and denial of employee telework, managers’ right to direct
                                          employees to report to work on their telework day, and
                                          managers’ ability to suspend or terminate telework.
                                          require training and recertification for current teleworkers
                                          and managers of teleworkers at least every two years.
                                          develop goals and objectives for accomplishing the work
                                          listed in the telework program work plan for fiscal year
                                          2011 and for increasing telework participation by sec
                                          employees.
                                          establish a process to monitor progress in meeting the com­
                                          mission’s telework-related goals and objectives. if the goals
                                          and objectives are not being met, take action to identify and
                                          eliminate barriers to meet the goals and objectives.



                                                  OCTOBER 1, 2011–MARCH 31, 2012                     |    53
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

         report number                    issue date                         summary of recommendations
            and title
                                                            require all mission-essential personnel to enter into telework
                                                            agreements that specifically allow them to conduct their con­
                                                            tinuity of operations responsibilities and the mission-essential
                                                            functions they will perform during emergencies or agency
                                                            closures.
                                                            require mission-essential personnel who have telework
                                                            agreements to telework periodically to practice their
                                                            assigned mission-essential and primary mission-essential
                                                            functions.
                                                            update the continuity communications section of the sec’s
                                                            continuity of operations plans and expand it to expressly
                                                            address conducting essential functions by telework con­
                                                            sistent with governing federal emergency management
                                                            agency and office of personnel management directives,
                                                            and the sec collective bargaining agreement. it should
                                                            include subsections addressing telework capability, training
                                                            staff to telework effectively, and exercising agency telework
                                                            competence as detailed in the commission’s pandemic
                                                            influenza preparedness plan.
                                                            instruct regional office directors to revise their regional office
                                                            continuity of operations plans to address all the essential ele­
                                                            ments of viable continuity capability specified by the federal
                                                            emergency management agency, and establish timelines
                                                            and submission criteria for the revised plans.
                                                            instruct the directors of the appropriate regional offices to
                                                            include in their continuity of operations plans strategies for
                                                            supporting headquarters essential functions during devolu­
                                                            tion of control.
                                                            perform server stress tests that incorporate a variety of appli­
                                                            cations used with remote access.
 492—audit of sec’s                      8/2/2011           at least annually provide information to sec supervisors
 employee recognition                                       on relevant parts of the sec award program, including (1)
 program and recruitment,                                   types of awards available and procedures for nominating
 relocation, and retention                                  employees for awards, (2) appropriate types of division-and
 incentives                                                 office-level awards for peer recognition, and (3) successful
                                                            award practices.*

* this recommendation had not been closed by the end of the semiannual reporting period, although management had submitted
documentation of completed corrective action and, after the end of the reporting period, the oig determined that the recommendation
should be closed.




54   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

         report number                    issue date                         summary of recommendations
            and title
                                                            provide formal training on revised policies and procedures
                                                            and issue information notices to supervisors and employees
                                                            as needed to reflect changes in practices and policies.
                                                            develop and implement a mechanism to reward employees
                                                            for superior or meritorious performance within their job
                                                            responsibilities through lump-sum performance awards.
                                                            re-examine budgeted amounts for recruitment, relocation,
                                                            and retention incentives to ensure that sufficient funds are
                                                            available, and make supervisors aware of available fund­
                                                            ing so they can effectively use incentives to recruit and retain
                                                            needed talent.*
                                                            consider ways that, as part of the employee recognition
                                                            program, the office of human resources may be able to
                                                            provide awards to employees for adopted suggestions
                                                            submitted to the oig’s suggestion program.*
 493—ocie regional                       3/30/201           continue efforts to establish a complete interface between
 offices’ referrals to                                      the super tracking and review system or its equivalent, the
 enforcement                                                hub, and the tips, complaints, and referrals system.
 495—sec’s oversight of the             3/30/2011           determine whether to request that congress modify the
 securities investor protection                             securities investor protection act (sipa) to allow bankruptcy
 corporation’s (sipc) activities                            judges who preside over sipa liquidations to assess the
                                                            reasonableness of administrative fees in all cases where
                                                            administrative fees are paid by sipc.
                                                            utilize more effective methods to communicate with inves­
                                                            tors in case of the failure of broker-dealers, such as notifying
                                                            investors of the status of the commission’s efforts throughout
                                                            the liquidation process or designating an employee, as
                                                            appropriate, who can communicate directly with investors
                                                            on matters unique to each liquidation case.
 497—assessment of                      8/11/2011           review the commission’s microsoft active directory settings
 sec’s continuous                                           and make the necessary changes to ensure that password
 monitoring program                                         policy requirements, as documented in the applicable imple­
                                                            menting instruction, are strictly enforced for both on-site and
                                                            remote users and that the documented password structure
                                                            set forth in policy is strictly enforced.
                                                            ensure that security controls configurations that are applied
                                                            in the production environment are identical with those
                                                            applied in the testing environment.

* this recommendation had not been closed by the end of the semiannual reporting period, although management had submitted
documentation of completed corrective action and, after the end of the reporting period, the oig determined that the recommendation
should be closed.




                                                                      OCTOBER 1, 2011–MARCH 31, 2012                           |      55
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

         report number                    issue date                         summary of recommendations
            and title
                                                            develop and implement written procedures to ensure con­
                                                            sistency in the commission’s production and testing environ­
                                                            ments. these procedures should detail the software and
                                                            hardware components in both environments and specify the
                                                            actions required to maintain consistent environments.
                                                            complete and finalize written server and storage log
                                                            management policies and procedures that fully document
                                                            the roles and responsibilities for log capture, management,
                                                            retention and separation of duties
                                                            analyze the level of criticality of the commission data and
                                                            the needs and wants of its customers, and establish an
                                                            appropriate backup retention period based on the results of
                                                            the analysis and that meets the requirements of the commis­
                                                            sion.
                                                            ensure that tapes are handled appropriately.
                                                            perform periodic audits of separated/terminated employees
                                                            and contractors to ensure that all account termination notices
                                                            were received and the appropriate accounts deactivated in
                                                            a timely manner.
 pi-09-05—sec access card               2/22/2010           ensure, on a commission-wide basis, that all regional
 readers in regional offices                                offices are capable of capturing and recording building
                                                            entry and exit information of commission employees.
 pi-09-07—employee                      3/10/2010           ensure the revised employee recognition program regula­
 recognition program and                                    tion and/or policy specifically addresses whether informal
 grants of employee awards                                  recognition awards are authorized and, if so, what criteria,
                                                            standards, and approvals pertain.
 roi-491—allegation of                  3/29/2010           make efforts to recapture a portion of additional award fees
 fraudulently obtained                                      a contractor obtained based on potentially inaccurate data.
 award fees
 roi-505—failure to timely              2/26/2010           ensure as part of changes to complaint handling system that
 investigate allegations of                                 databases used to refer complaints are updated to accu­
 financial fraud                                            rately reflect status of investigations and identity of staff.
                                                            ensure as part of changes to case-closing system that
                                                            cases that are not actively being investigated are closed
                                                            promptly.*

* this recommendation had not been closed by the end of the semiannual reporting period, although management had submitted
documentation of completed corrective action and, after the end of the reporting period, the oig determined that the recommendation
should be closed.




56   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Table 3. Reports with Recommendations, continued
recommendations open 180 days or more

         report number                    issue date                         summary of recommendations
            and title
                                                            ensure as part of changes to case-closing system that
                                                            enforcement staff members have access to accurate informa­
                                                            tion about the status of investigations and staff requests to
                                                            close investigations.*
                                                            ensure as part of changes to case-closing system that staff at
                                                            all levels are appropriately trained in case-closing proce­
                                                            dures.*
 roi-540—investigation of               1/25/2011           rectify the on-line recusal database’s inability to store certain
 possible violation of conflict                             information entered on the applicable form.*
 of interest restrictions
                                                            seek modification from the u.s. office of government
                                                            ethics of the blanket exemption for sK employees from the
                                                            one-year cooling-off ban.
                                                            designate an administrative contact to maintain a list of
                                                            specific matters from which senior officers are recused.
 roi-544—failure to                     1/20/2011           take immediate measures to determine whether every oit
 complete background inves­                                 employee and contractor has been properly cleared by a
 tigation clearance before                                  background investigation and issued an official sec badge.
 giving access to sec build­
 ings and computer systems
                                                            issue a directive ending the practice of allowing contractors
                                                            (or others) to begin work of any kind before being cleared
                                                            in a proper background investigation and being issued an
                                                            official sec badge.
 roi-551—allegations of                 3/30/2011           employ technology that will enable the agency to maintain
 unauthorized disclosures of                                records of phone calls made from and received by sec
 non-public information                                     telephones.
 during sec investigations
 roi-560—investigation of               9/16/2011           reconsider position that net equity for madoff customer
 conflict of interest arising                               claims be calculated in constant dollars by conducting a
 from former general                                        re-vote, and advise the bankruptcy court of its results.
 counsel’s participation in
 madoff-related matters
* this recommendation had not been closed by the end of the semiannual reporting period, although management had submitted
documentation of completed corrective action and, after the end of the reporting period, the oig determined that the recommendation
should be closed.




                                                                      OCTOBER 1, 2011–MARCH 31, 2012                           |      57
Table 4. Summary of Investigative Activity

     cases                                                              number
     cases open as of 9/30/2011                                          11
     cases opened during 10/1/2011–3/31/2012                              6
     cases closed during 10/1/2011–3/31/2012                              7
     total open cases as of 3/31/2012                                    10
     referrals to department of Justice for prosecution                   2
     prosecutions                                                         1
     convictions                                                          1
     referrals to agency for disciplinary action/other action             7


     preliminary inquiries                                              number
     inquiries open as of 9/30/2011                                      74
     inquiries opened during 10/1/2011–3/31/2012                         28
     inquiries closed during 10/1/2011–3/31/2012                         44
     total open inquiries as of 3/31/2012                                58
     referrals to agency for disciplinary action                          2


     disciplinary actions (including referrals made in prior periods)   number
     removals (including resignations and retirements)                    3
     demotions/suspensions                                                2
     reprimands                                                           0
     warnings/other actions                                              10




58    |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Table 5. Summary of Complaint Activity

  complaints received during the period                                           number
  complaints pending disposition at the beginning of period                         7
  hotline complaints received                                                     133
  other complaints received                                                       120
  total complaints received                                                       253
  complaints on which a decision was made                                         259
  complaints awaiting disposition at end of period                                  1


  dispositions of complaints during the period                                    number
  complaints resulting in investigations                                            5
  complaints resulting in inquiries                                                28
  complaints referred to oig office of audits                                       3
  complaints referred to other agency components                                  164
  complaints referred to other agencies                                            10
  complaints included in ongoing investigations or inquiries                       13
  response sent/additional information requested                                   28
  no action needed                                                                 10




                                                        OCTOBER 1, 2011–MARCH 31, 2012   |   59
Table 6. References to Reporting Requirements of the Inspector General Act
the inspector general act of 1978, as amended, specifies reporting requirements for semiannual reports to
congress. the requirements are listed below and indexed to the applicable pages.

     section            inspector general act reporting requirement                               pages
     section 4(a)(2)    review of legislation and regulations                                    45–47
     section 5(a)(1)    significant problems, abuses, and deficiencies                          14–24;
                                                                                                 30–43
     section 5(a)(2)    recommendations for corrective action                                   14–24;
                                                                                                 30–43
     section 5(a)(3)    prior recommendations for corrective action not yet completed            50–57
     section 5(a)(4)    matters referred to prosecutive authorities                                  59
     section 5(a)(5)    summary of instances where information was unreasonably
                        refused or not provided                                                      48

     section 5(a)(6)    list of oig audit and evaluation reports issued during the period            49
     section 5(a)(7)    summary of significant reports issued during the period                 14–24;
                                                                                                 30–43
     section 5(a)(8)    statistical table on management decisions with respect to
                        questioned costs                                                             49

     section 5(a)(9)    statistical table on management decisions on recommendations
                        that funds be put to better use                                              49

     section 5(a)(10)   summary of each audit, inspection or evaluation report over six
                        months old for which no management decision has been made                    48

     section 5(a)(11)   significant revised management decisions                                     48

     section 5(a)(12)   significant management decisions with which the inspector
                        general disagreed                                                            48

     section 5(a)(14)   appendix of peer reviews conducted by another oig                            61




60    |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
appendix a. peer reviews of oig operations



PEER REVIEW OF THE SEC OIG’S                           PEER REVIEW OF THE SEC OIG’S
AUDIT OPERATIONS                                       INVESTIGATIVE OPERATIONS
During the semiannual reporting period, the SEC        During the semiannual reporting period, the SEC
OIG did not have an external peer review con­          OIG did not have an external peer review of its
ducted	of	its	audit	operations.	Peer	reviews	of	OIG	   investigative	operations.	Peer	reviews	of	Designated	
audit operations are required to be conducted every    Federal Entity OIGs, such as the SEC OIG, are
three years. The most recent peer review of the SEC    conducted on a voluntary basis. The most recent
OIG’s	audit	operations	was	conducted	by	the	Cor­       peer	review	of	the	SEC	OIG’s	investigative	opera­
poration	for	Public	Broadcasting	(CPB)	OIG.	The	       tions was conducted by the U.S. Equal Employment
CPB	OIG	issued	its	report	on	the	SEC	OIG’s	audit	      Opportunity Commission (EEOC) OIG. The EEOC
operations in January 2010. This report concluded      OIG	issued	its	report	on	the	SEC	OIG’s	investigative	
that	the	SEC	OIG’s	system	of	quality	for	its	audit	    operations in July 2007. This report concluded that
function was designed to meet the requirements         the	SEC	OIG’s	system	of	quality	for	the	investigative	
of the quality control standards established by the    function conformed to the professional standards
U.S. Comptroller General in all material respects.     established	by	the	President’s	Council	on	Integrity	
The	report	is	available	on	the	SEC	OIG’s	website	      & Efficiency and the Executive Council on Integrity
at http://www.sec-oig.gov/Reports/Other/CPB_Peer­      & Efficiency (now the Council of the Inspectors
ReviewSEC.pdf.                                         General on Integrity & Efficiency).




                                                       OCTOBER 1, 2011–MARCH 31, 2012                  |   61
oig contact information



Help ensure the integrity of SEC operations. Report to the OIG suspected fraud, waste or abuse in SEC
programs or operations as well as SEC staff or contractor misconduct. Contact the OIG by:

phone                             Hotline          877.442.0854
                                  Main Office      202.551.6061

web-based hotline                 www.sec-oig.gov/ooi/hotline.html
complaint form



fax                               202.772.9265

mail                              Office of Inspector General
                                  U.S. Securities and Exchange Commission
                                  100 F Street, NE
                                  Washington, DC 20549

email                             oig@sec.gov



Information received is held in confidence upon request. While the OIG encourages complaints to provide
information on how they may be contacted for additional information, anonymous compaints are also
accepted.




62    |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
